<html>
<title> - HEARING ON THE BALKANS: WHAT ARE U.S. INTERESTS AND THE GOALS OF U.S. ENGAGEMENT?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                        HEARING ON THE BALKANS:
       WHAT ARE U.S. INTERESTS AND THE GOALS OF U.S. ENGAGEMENT?

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 1999

                               __________

                           Serial No. 106-77

                               __________

    Printed for the use of the Committee on International Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 62-629 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                  Mark Gage, Professional Staff Member
                    Marilyn C. Owen, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Mr. E. Anthony Wayne, Principal Deputy Assistant Secretary, 
  Bureau for European and Canadian Affairs, Department of State..     8
Ambassador Larry C. Napper, Coordinator for East European 
  Assistance, Department of State................................    13
Ambassador James Pardew, Principal Deputy Special Adviser to the 
  President and the Secretary of State for Kosovo and Dayton 
  Accords Implementation.........................................    14
Mr. Janusz Bugajski, Director, East European Studies, Center for 
  Strategic and International Studies............................    32
Professor Janine Wedel, Associate Research Professor, George 
  Washington University..........................................    34
Dr. Daniel Serwer, Director, Balkans Initiative, United States 
  Institute for Peace............................................    38

                                APPENDIX

Prepared Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    48
E. Anthony Wayne, Principal Deputy Assistant Secretary of State 
  for European Affairs...........................................    52
Ambassador Larry C. Napper, Coordinator for East European 
  Assistance.....................................................    66
Ambassador James W. Pardew, Jr., Principal Deputy Special Adviser 
  to the President and Secretary of State for Kosovo and Dayton 
  Implementation.................................................    76
Janusz Bugajski, Director, East European Studies, Center for 
  Strategic and International Studies: Problems of Balkan 
  Reconstruction.................................................    84
Janine R. Wedel, Associate Research Professor and Research 
  Fellow, The George Washington University: U.S. Aid to Kosovo: 
  Lessons From Past Experience...................................    89
Dr. Daniel Serwer, Director, Balkans Initiative, United States 
  Institute of Peace.............................................    95

Additional material submitted for the record:

Responses to Questions for the Record submitted to E. Anthony 
  Wayne by Chairman Benjamin Gilman..............................    98
Newsbyte released June 21, 1999, by the United State Institute of 
  Peace entitled: ``Moving Serbia Toward Democracy,'' submitted 
  by Dr. Daniel Serwer...........................................   129



                        HEARING ON THE BALKANS:
       WHAT ARE U.S. INTERESTS AND THE GOALS OF U.S. ENGAGEMENT?

                              ----------                              


                       Wednesday, August 4, 1999

                  House of Representatives,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. This 
morning's hearing will help our Committee and its Members to 
better understand what America's future role will be in the 
Balkans.
    As the United States enters its second peacekeeping mission 
in the Balkans, with no end to those peacekeeping commitments 
yet in sight, that question is going to have to be addressed. 
Just last week, the President participated in a summit meeting 
on the region to show American commitment to a regional 
assistance initiative for Southeast Europe. We need to 
understand what that new commitment will entail.
    Let me quote an editorial about the meeting from 
yesterday's Washington Post: ``Mr. Clinton came to the 
conference armed with some concrete promises. The Europeans who 
have promised to take the lead in Balkan reconstruction offered 
no such specifics. If the Stability Pact is to have any 
meaning, Europe will have to ante up and do it soon.''
    Since the end of the cold war, our Nation has provided 
roughly $7 billion in foreign aid and debt forgiveness to the 
15 states of Eastern Europe, plus another $14 billion or more 
to the 12 states of the former Soviet Union. That figure does 
not include the billions of dollars in peacekeeping costs that 
our Nation has incurred and will now continue to incur in the 
Balkans. But when we add in these costs, we realize that we 
will soon reach and rapidly surpass an expenditure of $20 
billion in aid and military costs in Eastern Europe alone, plus 
another $15 billion in the former Soviet Union.
    The point I am making is that America has done and is doing 
its share. Announcements of new American aid for the states of 
Southeastern Europe are in fact now made on an almost weekly 
basis. We must keep that in mind.
    I expect that our official witnesses today will give us a 
good estimate of what our Nation will commit to spend as a 
participant in the new Southeastern Europe Regional Assistance 
Initiative to which the President has pledged our support. News 
reports place the cost of the entire Southeastern European 
Assistance Initiative at $30 billion over a 5-year period. If 
our Nation were to finance only 20 percent of that total, it 
would equal $1.2 billion in U.S. aid alone for that region each 
year.
    I intend to join with my colleagues from New Jersey and 
elsewhere, Congressman Smith in particular, in introducing a 
bill that would authorize assistance specifically for the 
countries of Southeastern Europe, but that would lay out two 
important guidelines for our foreign aid to that region.
    First, a special authorization would be provided for 
funding to help the democratic opposition in Serbia. It is 
apparent that without democracy in Serbia there will be no 
stability in the Balkans.
    Second, that measure will underline the point that the 
European Union will have to take the lead in financing the 
regional assistance initiative by placing a cap on the U.S. 
financial participation in such an initiative. Democratization 
in Serbia and the European Union's lead on aid to Southeast 
Europe are both things that the President and officials of his 
Administration have said they fully support. I hope such 
legislation will have the President's support as well.
    We have a good roster of witnesses today to help us begin 
our review of our role in the Balkans. Our witnesses on behalf 
of the Administration include Mr. Anthony Wayne, Principal 
Deputy Assistant Secretary of State for Europe; Ambassador 
Larry Napper, State Department Coordinator for Assistance in 
Eastern Europe; and Ambassador James Pardew, Principal Deputy 
Special Advisor to the President and Secretary of State for 
Kosovo and the Dayton Accords Implementation.
    Our second panel will include Janusz Bugajski, Director of 
East European Studies at the Center for Strategic and 
International Studies; Professor Janine Wedel, Associate 
Professor at George Washington University; and Dr. Dan Serwer, 
Director of the Balkans Initiative, at the United States 
Institute for Peace.
    Before we begin with our first panel, let me ask our 
Ranking Minority Member, Mr. Gejdenson, if he would care to 
make any opening remarks.
    Mr. Gejdenson. Thank you. I just want to say that I 
generally agree with the Chairman's approach. I think that the 
United States, because of the assets that we have and the 
systems that were in place, played the leading role in the 
conflict. We expended the most significant portion of the cost 
of the war, and I do think the Europeans have to ante up, as 
will others in the world.
    We have, time and time again, taken the responsibility as 
the world leader. We like leading the world. We are ready to 
pay the price for that, but we don't want to end up being the 
sole economic supporter of these recoveries. I think it is 
clear that in putting together strategies in this region, we 
need strategies based on regional solutions, not country by 
country. Trying to do economic development in this region is 
almost, I believe, impossible if we take a nation-by-nation 
approach.
    When you look at the populations in these countries, you 
find that they are in the millions, not in the tens of 
millions. Occasionally you have a country that has a population 
of 10 million.
    I am going to look at my notes here.
    Kosovo has 2 million. What's left of Yugoslavia has about 
11 million. Montenegro has just under 700,000; Bosnia, 3 
million; Macedonia, 2 million; even Bulgaria, 8 million; 
Romania, 22 million; Slovenia almost 2 million.
    We need to have a policy that starts forcing the region to 
work together economically. There is nothing that binds the 
peace process like an economic relationship, and I know that in 
some ways the most difficult challenges are ahead. A military 
victory is a concrete and rather simple goal. To make sure that 
we are not in this situation 10 or 50 years from now, we really 
need to promote economic development in the region.
    I commend the Chairman for holding this hearing.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Chairman Gilman. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Chairman, I believe that the issues we are addressing 
in our hearing today are of critical importance.
    Obviously, the troubles of Southeastern Europe have had a 
tremendous impact on the development of U.S. foreign policy in 
the 1990's, following the cold war. While we do have strong 
regional interests, the Yugoslav conflict has put us face-to-
face with how seriously we take human rights and humanitarian 
issues as part of our foreign policy, even when national 
interests may not be otherwise so apparent. Indeed, we 
hopefully have learned from the tragedy of the Balkans in the 
1990's, what those involved in the Helsinki process have known 
for a long time, namely that there is no true peace without 
human rights and there is no long-term stability without 
democratic government.
    In Bosnia and in Kosovo, what we saw was genocide, and 
there is no greater moral imperative than to prevent genocide 
from taking place. There may also be no greater challenge. Our 
challenge now in the region is to bring democracy to places 
where it did not previously exist, at least in any durable 
form.
    In Southeastern Europe, decades of Communist rule have been 
followed by an intense, direct and violent assault by extreme 
nationalists on innocent civilian populations. The effects of 
endless propaganda are hard to reverse. The effects of 
witnessing family members being slaughtered are even harder.
    However, Mr. Chairman, if we are committed in the long term 
to assisting democratic forces in the region and promoting 
social tolerance, we can and we will make a difference. That is 
why I have been a strong supporter of efforts to support 
democratic development in the region. We simply must understand 
that some changes could be quick; but not all of those changes 
can be quick, and we must remain committed to supporting 
democracy for as long as it takes.
    Mr. Chairman, as you know, the Helsinki Commission, which I 
chair, has for a full decade encouraged democratic development 
in each of the republics and provinces of the former 
Yugoslavia. Through election monitoring, Congressional visits, 
public hearings and briefings and proposed legislation, the 
Commission has persistently brought close scrutiny to the 
halting transition before, during and after the eruption of 
violent conflict.
    As you know, Mr. Chairman, early in this Congress, I 
introduced both H.R. 1064, the Serbia and Montenegro Democracy 
Act and H. Con. Res. 118 regarding the culpability of Slobodan 
Milosevic for war crimes, crimes against humanity and genocide. 
I view both bills as critical and related to each other.
    The problems which led to the former Yugoslavia's violent 
demise may have historical roots and the region's contemporary 
leaders, as well as society as a whole, may all share some 
responsibility for perpetuating these problems. However, if it 
were not for the presence of Slobodan Milosevic and the 
complete absence of even one ounce of goodwill in that man, 
these problems certainly would have been resolved without 
violence on the scale that we have seen, if at all.
    I want to thank you, Mr. Chairman, for allowing these two 
pieces of legislation to move forward. I believe that our 
witnesses are familiar with the language of these bills and I 
trust that they will comment on these bills. As you know, Mr. 
Chairman, tomorrow we plan to introduce a new bill, addressing 
a number of issues in Southeast Europe. I support your notion 
that H.R. 1064 and H. Con. Res. 118 should move forward in a 
more comprehensive way, combined with other regional efforts.
    I also wish to thank you for holding this hearing in which 
we will hear from Administration views on efforts to promote 
democracy in the region, as well as insight from the panel of 
experts and I particularly want to acknowledge Janusz Bugajski 
and Daniel Serwer, who are each going to be on panels. They 
have testified before our Commission twice, Mr. Chairman, and 
they do provide excellent insights.
    Dr. Serwer, in fact, presented a paper to the Helsinki 
Commission last December, which was the inspiration for H.R. 
1064. The paper became famous when Serb nationalists in 
Belgrade sought to present it as a covert CIA document designed 
to overthrow the Yugoslav and Serbian regimes. So I want to 
thank Dr. Serwer again for his very fine insights that helped 
us draft that bill.
    I look forward to our hearing and thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Smith.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman. Let me also 
say it is very important that we have this hearing at this 
time.
    What are the U.S. Interests and goals of U.S. Engagement? I 
think that is a very comprehensive question, and I look forward 
to hearing testimony from our witnesses.
    I think that we certainly won the war in Kosovo. The 
question is, can we win the peace? That is going to perhaps be 
much more difficult than winning the war.
    Under the iron fist of Marshal Tito for 40 years, it 
appeared as though ethnic tensions were nonexistent, because 
the state became so overpowering there was very little 
expression overtly of the difficulties and tensions that have 
gone on for decades, for centuries, in that region.
    With the breakup of the Warsaw Pact and the passing on of 
people like Marshal Tito and other tyrants who, I think, did 
more damage than good; although the ethnic tensions were sort 
of subliminal, there was no work done at educating and breaking 
down these decades or these centuries of ethnic tension. With 
the new wave of democracy--you know, democracy means a lot of 
things to different people--these tensions tend to have 
surfaced again. So we certainly have a lot of work to do.
    I had the opportunity to visit most of those countries in 
the 1960's and very early in the 1970's--Russia, Romania, 
Hungary, Czechoslovakia, and Yugoslavia, Austria--and the 
repression of the government there, as I indicated, kept these 
differences from surfacing. But I think we have a challenge 
ahead of us.
    I think it is in our interest. I think it was the right 
decision for President Clinton to take the bold step. War is 
always unpopular and it takes courage to do the right thing. I 
think the President did the right thing. Now we have to 
complete the task.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Chairman Gilman. Thank you, Mr. Payne.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Well, the jury is still out on whether or 
not we did the right thing in the Balkans, and we will find out 
when we examine exactly what the cost of that operation was to 
the people of the United States.
    I mean, after all, we have a President now who says we 
can't afford tax cuts, which means giving billions of dollars 
back to the American people; and we have debates as to how much 
money we can spend on Social Security, how much money we can 
spend on various other things that are important to the quality 
of life and to the health and safety of our own people. And we 
will do that within the context of having spent whatever we did 
spend--and I hope to get into that with you today--as to what 
the costs and ongoing costs of the Balkan operation were all 
about.
    We need to know what has already happened, the short-term 
costs, as well as the long-term costs. We also should know 
whether or not this has created some type of dependency 
attitude by our European allies on the United States of 
America.
    The armed forces of the United States of America, should 
not be looked at as a foreign legion, as a resource for 
Europeans who should be shouldering more of the responsibility 
for their own stability and peace. And if we have now created a 
situation where our European allies don't think they have to 
spend more for their own defense and they can rely on the 
United States, then the costs will be much higher than what we 
have ever imagined for this operation.
    Oversight hearings like this will help us determine what 
policies our government is following, know what those policies 
actually are and what policies we should be following.
    I would like to congratulate Chairman Gilman on the 
leadership that he has provided during this entire crisis.
    One last note: When we talk about oversight--I will make 
this very short because we have Administration officials here--
this is one Member of Congress who has tried to have an 
oversight over our policy in Afghanistan. For over a year I 
have been requesting documents, and the Members of this 
Committee understand that. I am a Member of this Committee who 
has a special interest in Afghanistan.
    At long last, I would like to inform the Members of our 
Committee that documents that we requested about diplomatic 
decisionmaking about Afghanistan were sent to us and let you 
know most of them were newspaper clippings. In other words, the 
State Department thumbed its nose at this Committee, thumbed 
its nose at our oversight responsibility and has insulted us 
after a year-long stonewalling and putting up roadblocks for us 
to get the information about what our policy is concerning 
Afghanistan and the Taliban.
    So with that, I will thank the Chairman for calling this 
oversight hearing so we can at least understand what the 
Administration's policy is here, even though they are engaged 
in a policy of deception in terms of a covert policy of 
supporting the Taliban in Afghanistan.
    I yield back the balance of my time. Thank you very much, 
Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Chairman Gilman. Mr. Hastings.
    Mr. Hastings. Mr. Chairman, thank you for holding this 
hearing.
    I appreciate very much the witnesses that have assembled. I 
am sure that the information they impart will be of immense 
benefit to all of us.
    My good friend, Dana Rohrabacher--and he is my good 
friend--continues to amaze me. He and I enjoy a good debate. I 
heard you say, my dear colleague, and I agree, that we should 
be concerned about the short-term costs and the long-term 
costs. There also is a correlative, and that is the short-term 
benefits and the long-term benefits. This should not be looked 
at just as a cost factor when, in fact, stability in Europe 
benefits America immensely. And I can't understand how 
everybody does not understand that.
    Mr. Chairman, the crisis in Kosovo must lead all of us to 
reexamine how we view our place not only in Europe but in the 
world. As the world has changed, many of the key institutions, 
particularly European institutions, the European Union, 
Organization for Security and Cooperation in Europe, NATO, and 
indeed the United Nations have changed. Even though we are an 
ocean away, Americans know that in today's world of fungible 
borders and, Mr. Rohrabacher, the world is in interconnected 
conflicts, gross violations of human rights have become 
everyone's business.
    Having achieved our short-term goals in Kosovo, we must now 
establish a set of long-term goals for Southeastern Europe. 
Indeed, what we do now will seal the fate of Europe for the 
next century. Will there be stability? Will the rule of law be 
followed? Will there be peace? Will the waters be clean, the 
air breathable, and the rivers passable for commerce? Will 
ethnic and religious tensions erode? Will it be possible to 
attract investment? Our goals are simple, and I believe the 
Administration and others will put forward many of the terms of 
those goals: to alleviate tensions, prevent conflicts, promote 
the development of stronger civil societies which follow the 
rule of law and respect human rights, encourage the growth of 
strong and stable economies, raise the living standard for all 
Europeans and indeed by that raise our own living standards, 
assist economic and environmental regeneration and establish 
regional cooperation in the battle against corruption and 
crime.
    The people of the Balkans have known centuries of war and 
fear. This simply cannot continue. We cannot allow insecurity 
in Kosovo to engulf her neighbors. Montenegro, Albania, 
Romania, Bulgaria, indeed Hungary and others--they are all 
threatened by the civil and economic instability which has 
enveloped Kosovo. If we do nothing, they may also be consumed. 
By working together, we can transform the Balkans from a 
historic site of conflict and instability into the fabric of a 
stable and successful Europe.
    America can and should be a part of that transformation. 
And I agree with my colleagues who say that the Europeans 
should take not only the lead but the lion's share, and I know 
of no Europeans who have said anything any different. When 
visiting the Organization for Security and Cooperation in 
Europe, when I was with Amo Houghton in Ireland, everywhere we 
went, in London, we find the Europeans say they understand that 
they have that responsibility.
    I applaud President Clinton for his efforts to bring about 
a resolution to the crisis in the Balkans, and for his 
leadership in instigating the Stability Pact for Southeastern 
Europe, but the larger burden, obviously, must be carried by 
Europe.
    All of us abhor violence. The violence must stop, no matter 
who the perpetrators are. Our resolve, America's resolve, our 
commitment, America's commitment, should not be diminished at 
this time. It is time for us to insist that the United Nations 
move expeditiously to establish peacekeeping forces on the 
ground in Kosovo and appropriate training to establish a system 
of justice.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Judge Hastings.
    Chairman Gilman. Mr. Delahunt.
    Mr. Delahunt. I think Mr. Pomeroy is next.
    Chairman Gilman. Mr. Pomeroy.
    Mr. Pomeroy. Thank you, Mr. Chairman. Very briefly, I think 
the jury is definitely in on the Balkans conflict relative to 
Kosovo. Milosevic lost. NATO won. Nothing could be more clear.
    The sharp partisan tone of the debate relative to the 
Kosovo conflict that unfolded during the months of the conflict 
in the House of Representatives did not distinguish this body. 
It is my hope that beginning right now, beginning with this 
hearing, we can move into the post-conflict debate in a much 
more reasoned, sensible way. There is nothing Republican or 
nothing Democrat about that--instinctively or naturally arising 
from the difficult questions of winning the peace in Kosovo and 
the Balkans generally.
    We are going to have to work together and fashion 
reasonable, thoughtful policy. The American people deserve no 
less, and I hope that we can move to a higher plane than the 
discussions during the conflict itself. I yield back.
    Chairman Gilman. Thank you, Mr. Pomeroy.
    Chairman Gilman. Mr. Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman. I would 
associate myself with the remarks by Mr. Pomeroy. I would just 
make one observation. I would submit that the costs of 
instability in the region would simply be too high, and I would 
note that this government and this nation for some period of 
time has, in the Middle East, supported stability in the form 
of assistance to both Israel and to Egypt, and I think the cost 
has been well worth it. It is my understanding, and maybe a 
colleague could help me, that on an annual basis it amounts to 
somewhere in excess of $6 billion.
    Mr. Payne indicates yes. And I dare say that nobody on this 
panel would say that the costs of stability in the Middle East 
is too high, because the perils and the dangers both in the 
Middle East and in the Balkans are truly unacceptable. So I 
think it is important we have a perspective here. Yes, the war 
was costly and the peace will be costly, and again as Judge 
Hastings indicated it ought to be--the lion's share ought to be 
absorbed by the Europeans, but at the same time we have a vital 
interest. And I yield back.
    Chairman Gilman. Thank you, Mr. Delahunt. We will now take 
testimony from our witnesses.
    Chairman Gilman. Mr. Anthony Wayne had wide-ranging 
experience with our Department of State. Before assuming his 
current position as Principal Deputy Assistant Secretary of 
State for European and Canadian Affairs, he served as the 
Deputy Chief of Mission to the European Union. We welcome Mr. 
Wayne.
    Before that, Mr. Wayne served over many years at our 
National Security Council, the Office of the Ambassador at 
Large for Counterterrorism and as Special Assistant to the 
Secretary of State at our embassies in France, Morocco, and at 
the Bureau of Intelligence and Research. During a leave of 
absence, Mr. Wayne worked as a correspondent for the Christian 
Science Monitor.
    Mr. Wayne, you may summarize your written statement. It 
shall be placed in the record. Please proceed.

 STATEMENT OF MR. E. ANTHONY WAYNE, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY, BUREAU FOR EUROPEAN AND CANADIAN AFFAIRS, DEPARTMENT 
                            OF STATE

    Mr. Wayne. Thank you very much, Mr. Chairman. It is a 
privilege to be here today, and I thank you and the Members of 
the Committee for this opportunity to discuss in some detail 
the basis for and the elements of our policy toward Southeast 
Europe. I am very happy to have with me Ambassador James 
Pardew, our Deputy Special Advisor for Bosnia and Kosovo, and 
Ambassador Larry Napper, the Coordinator for East European 
assistance. Each of them will discuss in some more detail, 
following my remarks, what our policy is in their area of 
responsibility.
    But what I would like to try to do is talk a little bit 
about the overarching policy and programs, the U.S. Interests 
at stake, our objectives and the approaches and tools that we 
are trying to use to achieve those objectives and to indeed 
achieve maximization of our interests.
    I thought what I might do, to open with, is give a succinct 
statement of our policy, which came from a speech which 
President Clinton gave in San Francisco on April 15, and I will 
just quote from that, because I think this is a good clear 
overview of what we are trying to do. ``Because stability in 
Europe is important to our own security, we want to build a 
Europe that is peaceful, undivided and free. We should try to 
do for Southeastern Europe what we helped to do for Western 
Europe after World War II and for Central Europe after the cold 
war; to help its people build a region of multiethnic 
democracies, a community that upholds common standards for 
human rights, a community in which borders are open to people 
and trade, where nations cooperate to make war unthinkable .  .  
. the best solution for Kosovo, for Serbia, for Bosnia, 
Croatia, Macedonia and all the countries of Southeast Europe is 
.  .  . greater integration into.  .  .Europe.  .  .  .''
    I will discuss a bit later this past week's Stability Pact 
Summit meeting in Sarajevo. That summit demonstrated our 
commitment and the commitment of the leaders of the region and 
indeed of the broader international community to make this 
integration into a reality.
    There are three goals which we are pursuing in Southeastern 
Europe: The stabilization of the region; its transformation 
into a community of thriving democratic polities and vibrant 
market economies; and the integration of the region into the 
broader European transatlantic and global, political, and 
economic structures.
    We are pursuing these objectives in a broad range of 
institutions and programs, and let me just briefly list them 
because there are a number here: The Dayton implementation 
process; the Kosovo peace process; the support for east 
European democracy or SEED program, which Ambassador Napper 
administers; the Southeast European Cooperative Initiative 
known as SECI; NATO's Partnership for Peace and Euro-Atlantic 
Partnership Council; the Royaumont Process; the EC/World Bank 
donor coordination process; the Southeast Europe Defense 
Ministers group; and several others.
    Finally, and most importantly for the medium and long-term 
prospects in the region, we have established with our partners, 
as has been mentioned, a Stability Pact for Southeast Europe. 
This pact has the promise of providing a unifying framework to 
achieve the broad political and economic reform and the greater 
integration of the region into Europe, which so many of us 
seek.
    I would like to present our approach to Southeast Europe, 
first by discussing the programs and approaches that are most 
geographically focused, and then talking a bit about the 
broader and the longer term efforts that are underway; 
particularly in that sense, the Stability Pact being the 
broadest of these.
    First, there are the Kosovo and Bosnia elements which 
Ambassador Pardew will address in more detail. Kosovo clearly 
presents an immediate security, political, economic and 
humanitarian challenge for all of us. KFOR's deployment has 
improved the security environment dramatically, but we need to 
sharpen our focus on improving internal security.
    We must also establish the political mechanisms called for 
in the peace agreement and make the transition from meeting 
urgent humanitarian needs to laying out the basis for a self-
sustaining and productive market economy.
    In Bosnia, local governmental and police institutions are 
beginning to gain authority and popular legitimacy, which they 
need to ensure domestic security. But the economy still has a 
long way to go, and there is much that needs to be done there.
    I want to stress the importance of getting the Dayton and 
Kosovo process right. These are intensive tests of the 
international community's willingness to see peace take hold.
    Second, a word about Serbia. It is clear that Serbia 
continues to pose a serious challenge to regional stability, 
including the democratic government in Montenegro. The loss of 
Kosovo to KFOR and the U.N. Civil Administration has left 
President Milosevic weakened and discredited domestically. 
Milosevic is an international pariah and an indicted war 
criminal. As long as he and his regime remain in power in 
Belgrade, Serbia and the FRY cannot take their place among the 
community of democratic nations, a message that was made very 
clear at the summit in Sarajevo last week.
    President Clinton has clearly stated our policy. As long as 
the Milosevic regime is in place, the United States will 
consider providing humanitarian assistance through 
international organizations but not reconstruction assistance 
to Serbia.
    Helping to rebuild Serbia's roads and bridges would funnel 
money directly into the pockets of Milosevic and his friends, 
prolong the current regime, and deny Serbia the hope of a 
brighter future. We are working very closely with our friends 
and allies in Europe to coordinate our activities on Serbia and 
to forestall any weakening of the existing sanctions regime 
against the FRY.
    A key aspect of our policy on Serbia is indeed support for 
democratic change. We want to support those forces in Serbian 
society working to this end. We want to nurture the struggle 
for democracy, but at the same time I do not want to 
overemphasize our ability to effect change within Serbia. 
Milosevic maintains a firm grip on the main levers of power and 
the Serbian opposition remains far from united. But regardless, 
our support for democratic forces is an investment in Serbia's 
future. We look forward to working together with Congress to 
bring democracy to Serbia and restore real stability in the 
region.
    Albania, too, in the region, is a potential source of 
regional instability, as was demonstrated by its near collapse 
in March 1998. Although we have been obliged to reduce our 
presence in Albania for security reasons, we are continuing to 
work to address the security concerns and support political 
stabilization, economic reform and development in that country. 
We are now increasing our presence and our programmatic 
support. We are particularly encouraged by the responsible and 
restrained approach taken by the Albanian authorities during 
the Kosovo conflict and the reception accorded to the hundreds 
of thousands of Kosovar refugees. Albania was instrumental to 
our success in Kosovo. We feel strongly that its role should 
not be forgotten. We are restarting several of our bilateral 
assistance programs, largely focusing on combatting corruption 
and restoring public order.
    We participate actively in the Friends of Albania 
Organization, with many of our European allies and partners. 
Through that organization, we have established benchmarks for 
progress in Albania. We support the actions recently taken by 
the prime minister of Albania and the government to establish 
an effective rule of law. Progress has been slow, and, due to 
the nature of Albania's problems, we are going to have to show 
patience and persistence in order to bring about the long-term 
change that is desired.
    Third, for several years we have sought to address the 
problems of Southeast Europe in a broader context. Looking at 
the region as a whole, and increasingly since early this year, 
we have focused on a post-conflict strategy for renewal of the 
entire region. This strategy has many different elements, but 
the focus most broadly, of course, is on the three key project 
areas: Security, economic development, democracy and human 
rights.
    First, on the security side, we are working bilaterally 
with many of the countries in the region, but we are also 
concentrating our work through the NATO framework. At the April 
summit here in Washington, the Alliance established a special 
consultive forum for the members of the alliance plus the seven 
countries of the region on security that has begun to review 
regional proposals on crisis management, military-to-military 
cooperation, infrastructure ideas, and promotion of a 
democratic media. We have also agreed that the summit could 
develop mechanisms to better coordinate the security assistance 
to the region from the various allies. And we are working with 
the allies to implement this and other decisions on a rapid 
basis.
    The EAPC, that is, the Euro-Atlantic Partnership Council, 
which functions within the NATO structure, also created a 
working group on regional cooperation for Southeast Europe, 
which is going to look at defense planning, crisis management, 
and regional air space management.
    We are also supporting the efforts in the region, and 
particularly of note here is the Southeast Europe defense 
ministerial process that is really something built from the 
region up, bringing defense ministers together to look at 
regional cooperation, efforts that they can take together to 
promote peace, security and military reform.
    To encourage democratization, we have worked for many years 
now on a variety of programs, including the SEED program, and 
with a variety of groups and institutions, including the 
National Endowment for Democracy, to promote democracy. That 
also has included cooperation with the OSCE and with the 
European Union. Economic reform and development, of course, 
have also been a long, standard priority of what we have been 
trying to do, with the SEED program providing funding to 
support policy and administrative reform as well as 
infrastructure development.
    An important aspect of our post-World War II reconstruction 
efforts in Europe was our encouragement of regional 
cooperation. The states of Southeast Europe, with U.S. support, 
have built this regional cooperation in a number of different 
fora. I would like to highlight one, the Southeast European 
Cooperative Initiative, where we worked with states in the 
region really to have the first overarching coordinated 
regional approach to many of the economic troubles which plague 
the region. Eleven states have come together with the U.S. and 
other partners to pursue cooperative efforts, looking, for 
example, at cross-border crime and corruption. The FRY is not a 
member of this but Montenegro has attended on a regular basis 
now the SECI meetings as an observer. SECI participants have 
committed to join in measures to encourage trade and commerce 
and to make the region more attractive to private investors. 
The first two agreements, which they recently signed, have to 
do with harmonizing road transport and providing a sharing of 
information to combat cross-border crime.
    Mr. Smith.--[Presiding.] Mr. Wayne, sorry to interrupt. We 
have about five minutesremaining before we have to report to 
the floor.
    Mr. Wayne. OK.
    Mr. Smith. I apologize to our other witnesses as well. 
There are two votes and then the Chairman and many others will 
return to hear the conclusion of your testimony. So I do 
apologize.
    The Committee stands in recess until the votes are over.
    [Recess.]
    Mr. Houghton.--[Presiding.] All right. Gentlemen, thanks 
for your patience. We would like to reopen the hearing.
    And maybe you would like to finish up your statement, Mr. 
Wayne.
    Mr. Wayne. Yes. Let me quickly finish up the basic point I 
wanted to make about the SECI organization that this is largely 
a self-help program and has not cost the U.S. taxpayer more 
than very modest amounts, but is producing very concrete 
results.
    Let me just say a little bit about the Stability Pact and 
the summit which took place in Sarajevo last Friday. The Pact 
itself is a mechanism or, if you will, a process to bring 
together all of the many ideas, the many organizations, the 
many actors, at work to help integrate Southeast Europe into 
the transatlantic and European mainstreams. And so, what we are 
really talking about here is a forum to facilitate that can 
provide political coordination and a degree of comparative 
analysis for these ideas.
    We hope it is a process that can make more efficient, more 
effective, and more coherent all of the international and 
regional efforts that are going underway. The Pact is not a 
funding or an implementing agency; indeed it is a fairly lean 
international structure. So any proposals that are developed in 
the Pact would actually have to be carried out and implemented 
by other agencies. We foresee no large bureaucracy being 
developed in this context.
    The Pact proposals in the economic field requiring funding 
would go to the EC/World Bank chaired process, donors process, 
where they would be analyzed and assessed there, and we, of 
course, are a member of the high-level steering group guiding 
that process.
    Last week in Sarajevo, if I might go on, President Clinton 
and other leaders offered their comments on the future of 
Southeast Europe. The President took the opportunity to put 
forward several initiatives which we can talk about in more 
detail; these included $10 million to aid the efforts for 
democracy in Serbia.
    They included a proposed investment compact to spur 
investment in the region, a number of ideas associated with 
that, and the trade expansion initiative. Now on all of these, 
of course, as the President made clear, we look very much 
forward to working with Congress as we develop these ideas and 
as they go forward.
    But Sarajevo itself wasn't just about what people were 
offering or putting on the table. What was very significant was 
the clear commitment of everybody there to work together as 
partners to make this long-term process of integration a 
success. The clear message from leaders of the region that they 
knew they shared responsibility to work among themselves to 
undertake reform; the clear message from those outside the 
region that they had to respond concretely to those steps by 
the regional leaders. This was very important.
    In sum, I might just say that few of us could have foreseen 
or would have foreseen the depth of our engagement in Southeast 
Europe today. But I think few would deny that to engage in the 
region, to bring the states of Southeast Europe into the Euro-
Atlantic community of prosperous, secure, and democratic 
nations is a task and, indeed, an opportunity that must not 
find us wanting.
    Thank you.
    Mr. Houghton. Thanks very much, Mr. Wayne.
    [The prepared statement of Mr. Wayne appears in the 
appendix.]
    Mr. Houghton. The next witness is Ambassador Larry Napper, 
who serves as Coordinator of Assistance to East Europe after a 
long career with the State Department. After service with the 
United States Army, Ambassador Napper joined the Foreign 
Service and rose to a number of important positions in our 
diplomatic core including key positions at the Embassy in 
Moscow, Deputy Chief of Mission at the Embassy in Romania and 
Director of Department's Office of Soviet Affairs and 
Ambassador to Latvia.
    So, Ambassador Napper, we are delighted to have you here. 
Would you please proceed.

 STATEMENT OF AMBASSADOR LARRY C. NAPPER, COORDINATOR FOR EAST 
            EUROPEAN ASSISTANCE, DEPARTMENT OF STATE

    Mr. Napper. Thank you very much, Mr. Chairman.
    Given Mr. Wayne's detailed statement and our desire to get 
to your questions, I just want to make three points really 
about the SEED program and the role that it plays in our 
overall strategy in Southeastern Europe.
    First of all, SEED works; it is a demonstrated performer. 
If you look at the program over the past 10 years, we have 
graduated eight countries from the SEED assistance program. 
That means eight countries that were, at one point, recipients 
of our bilateral assistance have now progressed to the point 
where they no longer need direct U.S. bilateral assistance.
    In fact, SEED graduates are members of NATO and partners of 
NATO and aspiring companies for the European Union, so this is 
a program with a demonstrated track record. Elsewhere in the 
region, in Central and Northern Europe and, if we continue and 
if we persevere, in Southeastern Europe, we can achieve the 
same results because we can show a demonstrated track record.
    The second point I would make is that SEED is flexible. It 
allows us to do activities across a range from technical 
assistance to support for peace implementation in Bosnia and 
Kosovo, to the promotion of regional projects. Mr. Gejdenson's 
point about supporting development of the Southeastern Europe 
as a region--we can do that through SEED, and we are doing it.
    And finally, with small amounts of SEED assistance to these 
countries, we can help them create a climate to promote trade 
and investment, because the private sector is really the engine 
that is going to transform Southeastern Europe. So SEED works; 
it is flexible.
    My third point is, it is a bargain. Our SEED assistance 
program this year for all of Central and Eastern Europe began 
at $430 million, 370 of which was dedicated to Southeastern 
Europe. With the budget supplemental that the Congress passed 
and the President signed in May, we now have a total of $490 
million in SEED assistance going to Southeast European 
countries.
    Mr. Chairman, that is 3 percent of the 150 Account, the 
total 150 Account. So it is a minuscule part really of what we 
are doing overall in foreign affairs; and if you compare that 
to the overall Federal budget at large, you can see what we are 
doing here is a program that is modest in size, cost effective, 
and I say again it works.
    So with that, Mr. Chairman, I would like to conclude and be 
glad to take your questions. Thank you.
    Chairman Gilman.--[Presiding.] We regret the interruption 
for voting.
    [The prepared statement of Mr. Napper appears in the 
appendix.]
    Chairman Gilman. Our next official witness, Ambassador 
James Pardew, was appointed to his current position in March of 
this year after being appointed to the rank of Ambassador in 
1997. Ambassador Pardew has a long record of service with our 
military from which he has a number of decorations. Among other 
positions, Ambassador Pardew served with the staff of the Joint 
Chiefs in the Army General Staff and completed a number of 
foreign tours of service. Entering into the risky field of 
foreign policy, after that military career, the Ambassador 
served as Representative of the Secretary of Defense at the 
1995 negotiations on the Dayton Accords for Bosnia and then as 
Director of the ``Military Train and Equip Program'' in Bosnia 
from 1996 to 1999.
    Mr. Ambassador, we welcome you. You may summarize your 
written statement and put the full statement into the record as 
you may deem appropriate. Please proceed.

STATEMENT OF AMBASSADOR JAMES PARDEW, PRINCIPAL DEPUTY SPECIAL 
ADVISER TO THE PRESIDENT AND THE SECRETARY OF STATE FOR KOSOVO 
               AND DAYTON ACCORDS IMPLEMENTATION

    Mr. Pardew. Thank you, Mr. Chairman. I will submit a 
statement for the record. And I will just highlight its points, 
keying on some points that the Members made in their opening 
statements.
    First of all, throughout this century the stability of 
Europe has been of vital interest to the United States; and 
ethnic conflict in Southeastern Europe clearly is a direct 
threat to European stability and, therefore, is a threat to the 
U.S. National interests.
    That is why we have invested so much time, energy, and 
resources in former Yugoslavia over the past 10 years. That is 
why American troops have been in Macedonia since 1993, in 
Bosnia as part of a NATO-led force since 1995, and now in 
Kosovo as part of the NATO-led force implementing the agreement 
that followed the successful air campaign.
    These military deployments are not a permanent solution, 
however. Long-term regional stability requires active and 
robust political and economic development. I will talk about 
primarily Kosovo and Serbia and skip over the Bosnian peace. 
But in Kosovo, we have to rebuild civil society from the ruins 
of the savage campaign which Milosevic waged against the 
population.
    Our immediate steps to create an autonomous democratic 
society were successful in the successful air campaign and the 
return of over 700,000 of the 800,000 refugees expelled from 
Kosovo. Currently, more than 37,000 troops from 21 nations are 
deployed there, including 5,500-5,600 U.S. forces. K-4 is 
rapidly establishing a secure environment.
    Separately, the U.N. Administration for Kosovo, UNMIK, is 
making steady progress in deploying civil administrators, 
civilian police and judicial authorities to the field under 
extremely difficult circumstances. UNMIK has a very powerful 
mandate sufficient to create the foundations of a democratic 
society.
    And while it is deploying, it still has a very long way to 
go. We are doing everything that we can to urge contributing 
companies and the U.N. to deploy as soon as possible.
    I want to highlight last Wednesday's immediate needs 
conference in Brussels, which focused on humanitarian 
requirements and where donors pledged to provide nearly $2.1 
billion in humanitarian assistance. The United States pledged 
$556 million in assistance for urgent humanitarian needs, 
subject to clear assessment of the need and a confirmation that 
other donors will do their part.
    This money comes from the budget supplemental passed by the 
Congress and signed by the President on May 21st of this year. 
None of this funding will go for reconstruction in Kosovo or 
long-term development in Southeastern Europe. The follow-on 
donors conference in the fall will concentrate on assistance 
for reconstruction for which the Europeans will bear the bulk 
of the burden.
    An urgent item on UNMIK's agenda is the creation of a 
civilian police force. The U.N. plans to deploy 3,100 
international police; they will be armed and have arrest 
authority. This is a new development for the U.N. We intend to 
provide 450 of these police. This is an interim step until we 
can train 3,000 indigenous police, and the U.S. is playing a 
leading role in that effort in training local police as well.
    Further down the road, democratization will require active 
and pluralistic political life. Our goal is to hold elections 
in Kosovo as soon as feasible. I will skip over the Bosnian 
peace only to say that we have obviously had significant 
success there, but we still have a way to go on such things as 
refugee returns, economic restructuring, and the strength of 
state institutions.
    Finally, let me speak a moment about democratization in 
Serbia, because long-term stability in the region requires 
Serbian leadership committed to democracy and the rule of law. 
President Clinton has made clear that there will be no 
reconstruction assistance to Serbia as long as the Milosevic 
regime is in place.
    Over the past several weeks, Serbia citizens have shown 
their disgust for Milosevic and their hunger for democratic 
change through spontaneous demonstrations in the streets and 
cities throughout the country. These are positive developments, 
and we should nurture them. At the same time, I don't want to 
raise expectations that the Milosevic regime will fall easily 
or soon.
    Over the past two years, the U.S. Government has--and NGO's 
like NDR, IRI and NED have spent $16.5 million on 
democratization projects. In Sarajevo last Friday, the 
President announced he will work with the Congress to provide 
10 million this year and more over the next 2 years to 
strengthen independent media, NGO's, independent trade unions, 
democratic opposition. And we look forward to working with this 
Committee, Mr. Chairman, in that regard.
    Our democratization programs focus in three areas: first is 
assistance to opposition parties; second, in promoting 
independent media and the free flow of information; and third, 
we give special importance to support for Montenegro. President 
Djukanovic and the multiethnic democratic government in 
Montenegro have demonstrated courage and determination, and we 
want to support them as a model for change in the FOY.
    Mr. Chairman, that concludes the summary of my points. I 
will be open to any questions you may have.
    Chairman Gilman. Thank you, Mr. Ambassador.
    [The prepared statement of Mr. Pardew appears in the 
appendix.]
    Chairman Gilman. We will proceed with questions for the 
entire panel.
    Our nation has appropriated about $400 million annually in 
recent years for our SEED Act assistance program, the major 
U.S. aid program for Eastern Europe, and, combined with other 
forms of aid, U.S. assistance in the entire region has probably 
exceeded $500 million per year.
    Can our panelists tell us what the Administration will now 
be seeking for aid to Southeast Europe in fiscal year 2000 and 
what the Administration will commit to provide annually in such 
aid to Southeast Europe under a regional assistance initiative? 
And will that amount be larger than the current aid provided 
annually in Eastern Europe and, if so, by how much? I would 
welcome any of our panelists' response.
    Chairman Gilman. Ambassador Napper.
    Mr. Napper. Yes, Mr. Chairman. I have got it turned on now.
    Thank you, Mr. Chairman. The President's current budget 
requests for the SEED assistance program for 2000 is $393 
million. In the context of consideration of that on the Hill, 
the director of OMB has said that there will be a budget 
amendment submitted by the Administration, and we believe that, 
in fact, a budget amendment will be required.
    Now, I am not in a position today to say exactly what the 
level is that we will be recommending. That is still being 
developed within the Administration, and we want to work with 
you up here on the Hill, this Committee and others, to come to 
an appropriate level for seed assistance in 2000.
    Chairman Gilman. Thank you. James Wolfensohn, the President 
of the World Bank, has stated his fears that aid to the Balkans 
may siphon off aid needed to respond to the humanitarian crises 
in Africa and Asia, and he specifically cited the hundreds of 
thousands of refugees and internally displaced persons who were 
forced from their homes by the conflict over the region of 
Nagorno-Karabakh in Azerbaijan earlier in the decade and who 
have been living in abysmal conditions ever since. How do we 
respond to that concern?
    I welcome a response by any of the panelists.
    Mr. Napper. Well, certainly, Mr. Chairman, we recognize 
that there are requirements everywhere in the world which do 
require our attention. One fact, though, that I mentioned, if 
you look at the size of the SEED assistance program, in the 
context of the entire 150 Account, the entire foreign affairs 
account, which is about 3 percent of the 150 Account, I would 
not say that historically our SEED assistance program has been 
particularly large--has loomed particularly large in our 
overall assistance programs worldwide.
    I would anticipate what we are talking about, I would 
describe, is fairly modest increases in order to deal with the 
situation that we found there and to try to bring stability to 
an area which has after all cost us a number of millions of 
dollars in terms of fighting military campaigns and conflicts. 
We would like to avoid that by a reasonable and modest 
investment of assistance funds.
    Chairman Gilman. Would any of our other panelists want to 
join in answering?
    Mr. Wayne.
    Mr. Wayne. Just to add that, as you well know, Mr. 
Chairman, historically this region has been the source of much 
conflict during this past century, and now there is indeed a 
strong consensus, as evidenced by the Stability Pact Summit, of 
the need for a long-term effort to really integrate this region 
so that will not be the case in the future. And certainly we 
believe that is worth the investment of time and effort to do 
so.
    Just to note, Mr. Wolfensohn was present at the summit and 
that the World Bank is intimately involved in the thinking and 
planning that is going to go on for both Kosovo reconstruction 
and the broader reconstruction in the region. Indeed, the World 
Bank is one of the co-chairs of the donor coordination process. 
We have counted heavily already on their expertise and their 
guidance in developing the thoughts that we have so far, and as 
we look at the needs for the region, they will be a key player 
in pulling that needs-assessment together.
    Chairman Gilman. Ambassador Pardew?
    Mr. Pardew. I have nothing to add, Mr. Chairman.
    Chairman Gilman. Let me move on to another issue. In June, 
a spokesman for Carlos Westendorf, the head of the 
international effort in Bosnia, stated that corruption there 
involves hundreds of millions of dollars annually. Westendorf's 
deputy, Jacques Klein, had stated earlier that corruption in 
Bosnia was the largest single obstacle to that country's ever 
becoming independent of aid programs.
    Can you tell us what is being done to halt such corruption, 
what plans been made to eliminate that kind of corruption in 
Kosovo, and what planning will be undertaken to eliminate such 
corruption throughout Southeastern Europe as the new regional 
assistance initiative takes hold?
    Mr. Pardew. Mr. Chairman, let me speak of Bosnia.
    Chairman Gilman. Ambassador Pardew.
    Mr. Pardew. We are very much concerned about the issue of 
corruption in Bosnia and the potential, for that matter, of 
corruption in Kosovo. As I have said in my written statement to 
the Committee, we are not yet happy with the level of economic 
reform in Bosnia. We have put forth to the government, both the 
entities and the state government, proposals which would reduce 
the potential dramatically for corruption in that area. We are 
also working with the police and the international institutions 
to tackle this problem. But this is a long-term problem, and it 
requires structural reform in Bosnia.
    In Kosovo, we are working with the United Nations, the 
World Bank, and others to provide the immediate technical 
assistance to create the proper institutions that would reduce 
the potential for corruption there.
    Chairman Gilman. Thank you.
    Chairman Gilman. Mr. Pomeroy.
    Mr. Pomeroy. Thank you, Mr. Chairman. And first of all, I 
want to commend you for holding this very important hearing, 
clearly the complexities of what we are addressing require this 
Committee to learn everything we can and monitor the situation 
closely for the foreseeable future.
    My first question would be to Ambassador Napper and would 
involve your expertise with the former Soviet Union. What are 
the ongoing ramifications of the Kosovo conflict for our 
relationship with Russia?
    Mr. Napper. Well, Mr. Pomeroy, I am not working on Russia 
right now, but let me just answer your question the best way I 
can. Certainly, the issues surrounding this conflict have been 
at the center of much of our dialogue with Russia over the past 
few weeks and months. We have not always agreed at every point 
during the conflict about what should be done at the time. But 
I think at the end of the day, we have been able to cooperate 
with the Russians at very important points in the conflict.
    Mr. Pomeroy. Do you have a sense in terms of the lingering 
ramifications, whether the nationalists are still very much 
fueled by our involvement in the conflict? It seems to me that 
it is dying down very quickly.
    Mr. Napper. I think there is always a range of political 
opinions and viewpoints in Russia, that has always been my 
experience; and I don't think things have changed since then. 
Russia is now a democratic country and there are a lot of 
voices that get expressed. But, I think what is important for 
us is the policy that is followed by Russia. And at the end of 
the day, after a lot of back and forth and pulling and hauling, 
in fact, the Russians at key points have been helpful in trying 
to find a way to resolve the military aspect of the conflict 
and to bring the peace on the ground.
    And maybe Ambassador Pardew would like to add to that.
    Mr. Pomeroy. I think that answers my question adequately. I 
have a question though for Ambassador Pardew. It relates to the 
suggestion, and it is an important point, does this make Europe 
more dependent upon United States military intervention or does 
it indeed humble them and make them rededicated to developing a 
more effective European defense force to develop--to deal with 
European security matters? It seems to me that the comments--in 
particular, Prime Minister Tony Blair, would support the latter 
conclusion that, if anything, the aftermath in Europe in terms 
of this conflict is that they have got to do a better job of 
developing a coordinated military capability and execution.
    Mr. Pardew. I think there are two elements to your 
question, sir.
    First is a technical military one, and you really need to 
ask the Pentagon, because I think there is a difference in 
basic capabilities that this war may have been between the 
forces, and I am really not the right person to address that.
    But I think the United States and our European partners 
have reached a conclusion through this entire process, this 
decade of the breakdown of the former Yugoslavia, that the 
United States cannot go too far away from European 
responsibilities and the Europeans realize that they need our 
help.
    So I think we have developed an effective partnership that 
was borne out in this particular conflict in which we worked 
very, very closely from the beginning with our European 
partners on how we could reach an effective political solution. 
Unfortunately, it required the use of military force. But, 
again, this was the culmination of 19 different countries 
focused on the single objective, which is really a remarkable 
achievement.
    Mr. Pomeroy. It was a remarkable achievement. Mr. Wayne, do 
you have a comment?
    Mr. Wayne. Just to add that I think you are correct in your 
observations about the remarks that Prime Minister Blair has 
made, that clearly he and I think several others in Europe (of 
course, we don't know how many yet) have drawn the conclusion 
that there has to be a focus on developing defense capability 
in Europe. And that is one of the lessons that came out of 
Kosovo: the unity of purpose and the importance of the alliance 
was one lesson; another one was that there does need to be work 
on developing the defense capability in Europe. And he 
certainly has been vigorously pursuing that.
    Mr. Pomeroy. I hope he is reflective of the alliance. My 
time is up, but I have got another question.
    Chairman Gilman. Go ahead.
    Mr. Pomeroy. Thank you. It relates to housing stock. I 
represent North Dakota; we know about winter. And it looked to 
me, especially at the onset of the conflict, that they have a 
pretty severe winter there. How are we coming in terms of 
dealing with people who have lost their housing being able to 
survive a winter, for the hundreds of thousands of impacted 
families?
    Mr. Pardew. Well, first of all, this is a very resourceful 
population, and this whole situation has placed UNHCR under 
tremendous stress. If you look at what has happened here, first 
of all, you had the dislocation of 250,000 people inside of 
Kosovo and spilling over into the borders. Then almost a 
million people migrated out of the country, and now a million 
people have migrated back into the country, so the task for 
UNHCR has been enormous. And while there have been fits and 
starts, I think we have got to conclude that they have been 
able to deal with that great tragedy.
    It is our understanding now, and we have something like 90 
NGO's in Kosovo at this point in time, that basic humanitarian 
requirements are being met: medical, food, and shelter. UNHCR 
recognizes that they have a limited amount of time, as we do, 
to get people ready for the winter. But between the population 
and the self-help program and people sharing their own homes, 
buildings that have not been destroyed, and materials that are 
being provided by the international community, we believe right 
now that basic shelter needs will be met and that we will be 
able to deal with it.
    Mr. Pomeroy. Mr. Ambassador, that is music to my ears.
    Chairman Gilman. Thank you, Mr. Pomeroy.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Ambassador, thank you very much for your testimony. I 
wanted to call to your attention legislation I introduced on 
July 30, the Kosovo Burden Sharing Resolution, which was 
cosponsored by Mr. Lantos and other original cosponsors, Mr. 
Cox, Mr. Ewing, Mr. Green of Wisconsin, and Mr. Toomey. I had 
some encouragement from Republican House leadership in 
preparing this legislation. I held it several weeks, almost a 
month, while we tried to get more information about the cost of 
the air war.
    It still is sketchy, but we provided most of the aircraft. 
We flew most of the sorties; we provided most of the munitions, 
by far the majority: logistical planes, about 79 percent. What 
this resolution does is say that the U.S. should not pay more 
than 18 percent of the aggregate costs associated with 
military, air operations, reconstruction of Kosovo, and in 
other parts of the Southern Balkans. That 18 percent figure 
came from the President in his personal remarks to the Speaker, 
but he did not clarify what 18 percent was going to cover.
    I took the hard-line approach at a beginning of the 
negotiations and covered air war and so on; and in reality, I 
think what we spent on air war will be more than 18 percent of 
totals, but we can begin the negotiations at that point. It is 
my intention not to let the Administration permit European and 
other allies pay less than the majority costs for 
reconstruction in that area. And by majority, I am talking 
about a supermajority. It is important we don't begin to spread 
money around in that region.
    So this will be my effort to make a statement--get other 
people to support it, and then police the appropriation process 
hereafter, because Europeans have no history of the United 
States really coming down and asking them to follow through on 
promises and to pick up the majority of the costs.
    The second thing that it does in the way of guidance in the 
sense of the Congress element is to suggest that Macedonia and 
Albania deserve high priority for the costs--humanitarian, 
economic costs that they bore during this period of time in 
preparation for the air war, during the air war, and subsequent 
to the air war. I wanted to call that to your attention, 
gentlemen, and we will see how we progress at this point. But 
we are watching very carefully to make sure that the President 
doesn't continue to announce large expenditures without 
consulting Congress.
    I do have a question. I hope you can be candid, Ambassador 
Napper, in particular, with me on this. Is it true that you are 
having difficulty in the Administration getting approval of 
appropriations for Macedonia? What is the situation in that 
respect? Is there one Senator, or one Senate staffer, who is 
holding up the progress in getting money for Macedonia? If so, 
what are the cited reasons that you hear? Why are they holding 
up money for Macedonia when they have borne all of those costs 
and when they are potentially destabilizable as a result of the 
Balkans war, a very fragile democracy in its early stages in 
the first place.
    Mr. Napper. Mr. Bereuter, thank you very much for your 
question. I agree with you, we certainly do--in the 
Administration--Macedonia and Albania deserve priority 
attention and, in fact, they have received that. In our SEED 
assistance program, for instance, the original allocation for 
Macedonia in 1996 was $16 million. That has more than doubled 
to $32.5 as a result of the supplemental appropriation and 
other increments that we have been able to bring to the 
account.
    In addition, out of the roughly 100 million in ESF 
(Economic Support Funds) that was appropriated for budget 
support and balanced payments support, 28, 29 million--22 
million of that 100 million went to Macedonia, and then another 
six that we found in an existing account. So, as you can see, 
we tried to do everything we can possibly do to assist 
Macedonia and Albania in these circumstances.
    We have had dialogue with a number of Members and staff 
concerning Macedonia. There is at present no impediment to 
providing the assistance to Macedonia. Whatever questions did 
exist, and there were some at one point, have been answered so 
that the assistance is able to flow. There were some questions, 
frankly, about how the Macedonians and the Macedonia security 
forces handled the influx of the Kosovar Albanian refugees when 
they first came into Macedonia.
    There were some reported instances in which the security 
forces were not perhaps as welcoming as might have been hoped, 
but we did work with the Macedonian authorities, we believe we 
saw a significant improvement. And as I say, we have been able 
to resolve virtually all of the questions that involve 
technical assistance and balanced payment assistance.
    There is one remaining outstanding question concerning 
foreign military assistance, but by and large all of the 
assistance to Macedonia is flowing.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Chairman Gilman. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. Questions have been 
posed relative to burden sharing, and the disproportionate 
share in terms of the military action that was undertaken. 
Clearly there is a growing consensus, within this Committee and 
in Congress and within the Administration, that the Europeans, 
our NATO allies, should step up in terms of economic assistance 
and development at this point. But in the course of the 
exchange, I think it was you, Mr. Wayne, who talked about Prime 
Minister Blair in a recognition that they have to increase 
their burden when it comes to the security, security capacity.
    But if we are successful, if the United States, our NATO 
allies are successful in nurturing true democracy in this 
region, one can't always foresee the future, but I would 
suggest that a viable dynamic democracy within the region would 
really, to a substantial degree, obviously obviate the need of 
the concern about these security issues.
    Any comment? Again, that is why I would say that a priority 
at this point has to be examining this question in a regional 
context and making the kind of investment, whether it be 
substantial or not, that will save us in the long run.
    Mr. Wayne. Congressman, if I might take a crack at least at 
a initial response.
    We agree fully with you that we need to take a regional 
view of this situation. That means, of course, sometimes we 
will act in individual countries, because they have their 
individual needs. We also agree fully, as you indicated, that 
the lion's share of the reconstruction and development costs 
should be provided by the Europeans. And with every European 
that I have talked to, they agree with that and indeed say that 
it is their intention, to do so, and that is what they will do. 
Ambassador Napper can give some specific figures in the 
technical assistance area, to show that in talking about 
reconstruction and development, they, indeed, even before the 
conflict, were providing the lion's share. And they know now 
that they need to provide more.
    The European Union is revising its different types of 
contractual relations to have more trade access available for 
the countries of the region, particularly for Macedonia, 
Albania, and Bosnia, where there were different kinds of trade 
and commericial regimes. They are looking at all of their 
relations to indeed provide more assistance, to have more trade 
access, to encourage investment, and this is very important.
    Indeed, what you said about democracy, supporting 
democracy, it is vital. We need to do that. Democracy has taken 
good root in a number of the countries of the region. There are 
other places clearly where it needs help, and there is Serbia, 
which is a large hole. We need to work on all of those. And 
indeed, we can't separate the work on democracy from the work 
on the economy, from the work on security. We have to pursue 
all three of those baskets, if I could put it that way, 
together.
    Mr. Delahunt. If I may, Mr. Chairman, my time is almost up, 
just an observation. In any society or in region, there are 
symbols, I do concur, and really support the Administration's 
position vis-a-vis aid to Serbia, as long as Milosevic is still 
in power, because I think he has become such a symbol. I think 
some of us overestimated his ability to survive. Early on, it 
was stated that he would never withdraw without the 
intervention of U.S. ground troops; yet he did, and his efforts 
to divide the alliance obviously failed.
    I think it is fascinating to see the demonstrations break 
out in such short order after the conclusion of the conflict. 
But I was heartened today to read that an indicted war 
criminal, a Bosnian Serb general, was arrested. It is important 
to maintain that course, because I think people in the region 
are looking toward that end. I think it carries such symbolism 
in terms of why we were there in the first place, in terms of 
the moral imperative of saving lives and in being there for the 
right reasons in terms of defending human rights everywhere.
    Mr. Wayne. We agree.
    Chairman Gilman. Thank you, Mr. Delahunt.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Gentlemen, when I was a young reporter, I 
used to ask two questions, and actually I just asked these two 
questions over and over and over again of whoever I was 
interviewing. People used to think that I knew a lot more than 
I knew, because everyone always seemed to be stymied a bit by 
these two questions. I think I will just ask you fellows the 
same questions, and I am sorry if you may have already answered 
them while we were gone for the vote.
    The two questions I always asked were, how much is it going 
to cost and who is going to pay for it? So maybe you can tell 
us specifically how much the Balkan operation has cost us so 
far? How much will it cost by the time we have reached a 
conclusion? And just who is going to pay for it? Do we have any 
specifics for that? I mean, you are here to give us a little 
insight on these things.
    Mr. Napper. I would like to try to address the nonmilitary 
costs. I know you probably are very interested in the military 
side of it. But that is something that we----
    Mr. Rohrabacher. Does the State Department have any overall 
figure for us?
    Mr. Napper. If you look at the supplemental appropriation 
that Congress passed and the President signed for the Kosovo 
Conflict, that gives you a pretty good thumbnail sketch of what 
we are intending on doing, and that is roughly just about a 
little bit more than a billion dollars in terms of nonmilitary 
costs for the Kosovo conflict, which includes a 120 million in 
SEED funds, 105 million in economic support funds for a 
balanced payments assistance to the front line states and 
investigation of war crimes, and the vast bulk--the remainder 
of that 1.3 million--is fundamentally humanitarian.
    Mr. Rohrabacher. The trouble about analyzing a supplemental 
is that we know that funds have been poured in from other 
accounts into this specific commitment, because the 
Administration, you know, saw this as an emergency situation.
    Mr. Napper. Yes.
    Mr. Rohrabacher. Would I be wrong in suggesting that after 
10 years, we may look back and find that $30 billion have been 
spent by the United States both in the military as well as the 
civilian end of this project?
    Mr. Napper. In my view, that figure is probably far too 
large, but, you know, it is difficult to sit here and give you 
an estimate of what the next few years are going to bring. 
Certainly, there is no plan for a $30 billion commitment over 
the coming years of that kind.
    Mr. Rohrabacher. Do I have any other overall idea of 
estimate? Let me ask, please, the next time we have some type 
of a briefing on this or some other type of a hearing, that we 
have a figure, because I think that it is important for the 
American people to understand the costs. And we all know who is 
going to pay for it--we are going to pay for it--old Uncle Sam 
and then all the rest of the taxpayers.
    One thing that has disturbed me over the years is that ever 
since World War II, it seems when we have had the upper hand we 
have been unwillingly to take those final tough steps that will 
end a situation and correct it. For example, here it is, 10 
years later with Saddam Hussein, we are still in Kuwait and we 
are fighting Saddam Hussein today. My father fought in Korea 
and 50 years later, one-fourth of the history of our country, 
we are still occupying Korea.
    Concerning what we are doing in Kosovo, have we at least 
decided that Kosovo will have its right to independence and 
freedom? By the way, I personally believe that the Kosovars and 
all people should have their right of self-determination. Are 
we going through all of this cost but still trying to maintain 
this charade that Kosovo is part of Serbia and thus leaving the 
door open 10 years from now for the Serbs to do exactly what 
they just did?
    Mr. Napper. First of all let me say something about who 
pays. Again, I can't speak as to the military costs, but I can 
say that we just had a donor's conference on the immediate 
humanitarian needs in which the United States pledged roughly 
one-fourth of those costs. The Administration has been on 
record over and over and over again that the vast majority of 
reconstruction cost is a cost that will be borne, in the large 
part, by the Europeans.
    The European Union has stepped up to that responsibility 
and stated that they will take a leadership role and has taken 
over the reconstruction piece of the U.N. force or the U.N. 
civil aministration force that is in Kosovo.
    So the United States will pay particularly in the 
humanitarian area. Right now, that figure is about 25 percent 
of the anticipated funding that is going to come in there. We 
will participate very little in the reconstruction cost. It 
will largely be a European matter.
    On the issue of Kosovo, we haven't ruled out independence 
in the sense that the long-term status of Kosovo has not been 
decided. It is something that should be decided as the civil 
society is reconstituted, as people have governments that are 
put in place, and that just hasn't happened yet.
    We have a situation over there now in which, first of all, 
NATO is basically in charge. The U.N. will assume 
responsibility for civil aministration, and in that process, we 
will develop local institutions, police, local governance and 
so forth toward democracy. Once we have a structure in place 
that can deal with the long-term issue of Kosovo status, it can 
deal with that. But it is premature now to determine the long-
term status of Kosovo.
    Mr. Rohrabacher. It would probably be better to determine 
that while we have the upper hand, you might say, I did notice 
that you were training 33,000 policemen.
    Mr. Pardew. If I said that I am wrong.
    Mr. Rohrabacher. What was that, then?
    Mr. Pardew. It is about 3,000 local police.
    Mr. Rohrabacher. I was trying to clarify that.
    Mr. Pardew. We are going to have about 3,100 national 
police on the interim basis until we can get the police force 
built.
    Mr. Rohrabacher. Thank you very much. I do believe, again 
just for the record, if we have gone through all this and the 
people of Kosovo have gone through this, the Kosovars do 
deserve their own independence, which would be the long-term 
solution. Thank you.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Chairman Gilman. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Let me just follow up on Mr. Rohrabacher's question with 
regard to the costs. I would like to know when or if we will 
ever receive these figures, in terms of the costs. In terms of 
the nonmilitary costs, I would like to know the accounts that 
this billion is coming out of; because from what I remember 
during the supplemental appropriation process, we had some 
numbers in terms of offsets to food stamps and section eight 
housing and community development block grants.
    I say that because right now we are facing huge cuts in the 
VA-HUD budget, and this impacts senior citizens and low-income 
individuals in terms of housing in their communities and in 
terms of just their ability to eat. So I would like to know 
when we receive those costs, if we will know where those costs 
are coming from.
    Whether we agreed with the war or not--I certainly did not 
agree with it--I think it is our obligation to provide the 
support for the Administration in terms of its rationale to not 
support reconstruction assistance until Milosevic is out of the 
picture. But I guess the question I have is, at what point do 
we evaluate this position and look at what impact it is having 
or, if it is having no impact on the people of Serbia, 
regardless of whatever humanitarian assistance that we are 
contributing.
    Is there a dropdead point, do we go back and evaluate it? 
Do we say to Congress, the lack of our participation in 
reconstruction efforts has impacted the people in this way?
    Mr. Napper. First, with regard to your first question, the 
Kosovo supplemental was passed under emergency designation. It 
was not offset, so that there is not a tradeoff between the 
moneys that were included in the Kosovo supplemental and the 
other program accounts that you are discussing.
    With regard to the people of Serbia, we have made it clear 
from the beginning that we don't have anything against the 
people of Serbia. What we have as a problem is their leadership 
at this point. We have not ruled out the possibility of 
humanitarian assistance to the people of Serbia; and, indeed, 
we have continued to contribute to international organizations 
on the ground in Serbia that are providing that kind of 
humanitarian assistance. Here I am talking about food and 
medicine--that kind of thing.
    But we do draw the line at reconstruction and the President 
has made that very clear this is our position. And I don't 
anticipate that changing until there is a change in the 
leadership.
    Ms. Lee. I understand that. And I agree, but I am just 
saying at what point? For instance, if people need bridges to 
go to work and can't go to their jobs because they can't get 
there and there is no reconstruction assistance in the mix, do 
we ever evaluate what that means in terms of the people? I 
fully agree with what you are doing--I am just saying how do we 
know its impacts or will we ever know, or does it really matter 
until Milosevic is out of the picture?
    Mr. Pardew. This is a tough question, because some of the 
restrictions--the sanctions regime, and we hold a complete 
sanctions regime still in place, new bridges and those kinds of 
questions do have an impact on the population. But the basic 
rule we are applying at this point is that anything which 
strengthens the regime is off limits.
    We are willing to contribute to international organizations 
that would meet the basic needs of the population, food, 
shelter, medicine, those kinds of things; but if it goes into 
accounts which then can go to Milosevic or his cronies or 
strengthen the regime, even though it may have some impact on 
the population, we are, at this point, unwillingly to do it. 
And, you know, we can assess that.
    Ms. Lee. Are we assessing the impact or will we?
    Mr. Pardew. What we are trying to do is work with the 
democratic opposition. As you know, the President has sent 10 
million this year. We are assessing the needs for the future on 
how we can improve the potential to change the regime here in a 
way that would be more democratic. I think that is the real 
solution here. And then the restrictions which are in place at 
this point in time would be reconsidered.
    Ms. Lee. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Ms. Lee.
    Chairman Gilman. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I just have two 
questions. How much is it going to cost and who is going to pay 
for it? No, I guess that has already been asked.
    Seriously, relative to Bosnia, in particular, as you all 
remember, this House was led to believe that our troops would 
be there for one year and it was going to cost somewhere in the 
range of $2 billion or so. It has gone up now, I understand, to 
eight or nine or $10 billion, and we have been there for four 
years now with no end in sight. I was just wondering what the 
latest thinking is, and if you have already covered this in 
your testimony, I apologize. We have about three Committee 
hearings that we are kind of bouncing around on--most of the 
Members. What is the best thinking at this point in time 
concerning how long our troops are going to be in Bosnia?
    Mr. Pardew. Well, I think that the lesson was learned in 
the original projection on giving a specific timeline, that was 
probably a mistake.
    Having to go back on that, reassessment has been done in 
which we are looking for an end state as our way out, not an 
end date. So there is no willingness at this point to put any 
kind of timeline on this. I would simply point out that when we 
went into Bosnia, there were 60,000 U.S. troops. We have set 
benchmarks on things that need to be done in order to provide 
long-term stability, and that is our interest and objective 
here.
    As the situation there has improved, we have been able to 
reduce the force commitment now down to about half, less than 
half of what we had in there to start with, so the troop 
contribution or troop levels have gone way down. As other areas 
are improving, we can see the international community cutting 
back as well.
    But there is a set of clear benchmarks that we are looking 
at, the President has set 10 of those, and our presence there 
will be measured against the benchmarks seeking to achieve 
long-term stability.
    Mr. Chabot. OK. I appreciate your response. But in essence, 
you have said that, yeah, it was one year and that was probably 
a mistake to tell us that. It has now been four and there is no 
end in sight at this point.
    Relative to our commitment in Kosovo, I know that there was 
no commitment, and I would assume that the Administration would 
not really find it wise to even venture a guess as to how long 
the troops might be there either. Is that correct?
    Mr. Pardew. Again, the presence there is based on the goals 
of the Security Council Resolution 1244, which gives a powerful 
mandate to the civil Administration and to the military 
presence headed by NATO. As the tasks that are identified in 
the Security Counsel Resolution and the objectives are met, 
those numbers--that commitment should be reduced.
    So we are hopeful Kosovo is a significantly different 
situation than we had in Bosnia. We are hopeful that the 
presence there can be reduced more rapidly. But, again, 
Congressman, you cannot put a specific time or date on that.
    Mr. Chabot. OK. Thank you very much.
    Chairman Gilman. Thank you, Mr. Chabot.
    Chairman Gilman. Dr. Cooksey.
    Mr. Cooksey. Thank you, and thank you gentlemen for being 
here.
    You know, I was over there in May and visited some of the 
camps. My question is, were the camps kept open? Because it 
seems that the peace is failing, and you have just got a 
different group of refugees. One group has now gone into the 
country and another group is coming out.
    So are you keeping the camps intact to take care of those 
refugees--the new group, the Serbs that are coming out? There 
is an infrastructure there now, or has it all been dismantled?
    Mr. Pardew. It is considerably different, Congressman. 
First of all, the numbers are vastly different.
    Mr. Cooksey. Ten percent, I would assume.
    Mr. Pardew. The number of Serb refugees, I think, is 
somewhere on the order of less than 200,000, whereas in Kosovo, 
we had over a million refugees and displaced persons. Some Serb 
refugees are going to Macedonia where camps were established; 
they are not going, for obvious reasons, to Albania. There were 
large camps, so there is no application to Albania.
    It is my understanding that most of them, those who have 
gone to Macedonia are simply going back, going to Serbia. Our 
goal is to have a multicultural society in Kosovo. We are 
extremely concerned about the departure of the Serbs; and we 
are concerned about attacks on the Serbs, just as we were 
concerned about the terrible tragedies that occurred to the 
Kosovar Albanians.
    Mr. Cooksey. I would hope you are because they are people, 
too. You know, another question, and I don't know who should 
answer this, because I assume none of you have a military 
background, but is it true that the NATO commander who is an 
American general requested the British to intercede as the 
Russians were heading toward the airport at Pristina? Was that 
command given and is it true that General Jackson failed to 
respond to that command?
    Mr. Pardew. Congressman, I don't know the answer to that.
    Mr. Cooksey. It is a question that should be answered to 
find out how strong NATO is and what the command structure is. 
I know it is probably not relevant to people that have no 
military background, but...
    Mr. Pardew. I have that, it is somewhat dated. But I 
honestly can't give you the factual answers to that question, 
because I simply don't know the facts.
    Mr. Cooksey. Tell me about Thaci.
    Mr. Wayne. Thaci.
    Mr. Cooksey. Thaci, Thaci, short A. Does he have the 
potential to be a reasonable leader of Kosovo?
    Mr. Pardew. It remains to be seen. He stepped forward at 
Rambouillet. He clearly has leadership, natural leadership 
ability. He has sort of come up out of the ranks of the KLA. He 
has represented them.
    Mr. Cooksey. What was his background? What did he do 
before?
    Mr. Pardew. He was in the KLA, in the military--I don't 
know.
    Mr. Cooksey. Educational background, professional business?
    Mr. Pardew. I can get you that.
    Mr. Cooksey. I would like to know, I would be interested in 
seeing that.
    Mr. Pardew. All right.
    Mr. Cooksey. You know the thing that has created a problem 
for victims on both sides of the issue, both sides of the front 
is that--and this is a general statement with its potential 
shortcomings--is in this day and time, if you look across the 
full panorama, we have had a lot of leaders in this country and 
Canada and Europe and NATO and Yugoslavia that are 
narcissistic, that are people who are skilled communicators, 
take advantage of television, and they don't always do what is 
best for their people.
    And Milosevic, if you really look into his background, fits 
into that mode. He did a lot of what is good for them at the 
time, what made them feel good at the time; Milosevic actually 
lived in this country--he worked on Wall Street, as you know, 
and is well educated. He is a lawyer, whether that is such a 
good education, but anyway it is an education. A lot of people 
have fallen victim to these flawed personalities with all the 
frailties that go with them.
    I hope that we get some real leaders like Churchill and 
Thatcher, not to mention any of our great leaders. But are 
there any of those on the forefront in the Balkans?
    Mr. Pardew. I think there are people with that kind of 
potential, but they haven't appeared yet.
    Mr. Cooksey. Thank you. Would you like to comment?
    Mr. Wayne. I was just going to say, of course, this is one 
of the reasons why we have tried to support free media 
development in Serbia and the former Yugoslavia and elsewhere--
because it is so important to give news access to people, so 
that there is not only one media outlet that can be dominated 
by a regime or a magnetic personality.
    Chairman Gilman. Thank you, Dr. Cooksey.
    Chairman Gilman. Mr. Burr.
    Mr. Burr of North Carolina. Thank you, Mr. Chairman. I have 
to make a statement at the beginning. Ever since the issue of 
our policy there has come up, I envision those who deal with 
policy, with this big kaleidoscope, and every time they look in 
it they see the pretty colors. It is always the same, 
unfortunately, nothing outside of the kaleidoscope ever affects 
the inside of what you see.
    I have a real question as to whether we are being realistic 
in what can be achieved, or whether our goals are limited to 
what we see in that kaleidoscope when I hear the perfectly 
multicultural area that we would like to have. I won't get into 
the realities of whether we can get there or what the cost is, 
both financial or human. Let me just ask, and I will address it 
to anybody who would like to answer, did Kosovo come up in the 
Dayton talks?
    Mr. Pardew. Not in a significant way.
    I can speak of that because I was there.
    Mr. Burr of North Carolina. Why don't you speak of it ?
    Mr. Pardew. OK. There may have been some discussions of 
Kosovo, but it was not a major objective in the Dayton talks, 
because the Dayton talks were focused on the tragedy in Bosnia 
that had caused two and a half million refugees and 250,000 
dead. Kosovo was, at that time, relatively quiet. In the 
meantime, Bosnia was on fire and it was the requirement and the 
belief at that time that what had to be focused on was the 
immediate fire that needed to be put out, and that if we got 
into larger issues at that point in time, more distant issues, 
that it would detract from our ability to bring the Bosnian 
conflict to a close.
    Mr. Burr of North Carolina. Dayton was not about stability 
in Bosnia?
    Mr. Pardew. Dayton absolutely was, absolutely about 
stability; but it was focused on Bosnia, and we did not feel as 
though we could weaken our effort on Bosnia by taking on any 
number of other issues. I mean, there is also Montenegro. There 
is Vojvodina. There are any number of issues.
    Mr. Burr of North Carolina. When did this dissolution of 
Yugoslavia start?
    Mr. Pardew. Eighty--well, you could probably trace it back 
to Tito's death, but it started to come apart in----
    Mr. Burr of North Carolina. Certainly in the late eighties, 
would you agree?
    Mr. Pardew. Late eighties. Whenever Slovenia----
    Mr. Wayne. 1992?
    Mr. Pardew. No, it actually--I believe it started in--.
    Mr. Burr of North Carolina. So we had concerns about not 
only the stability of Bosnia at the time of the conflict, but 
we knew then that we had a much bigger stability question, 
didn't we?
    Mr. Pardew. Well, when Yugoslavia started to come apart, 
it, of course, raised stability concerns, that is right.
    Mr. Burr of North Carolina. Did anybody at Dayton say, 
gosh, we don't have to address Kosovo because that won't be a 
problem?
    Mr. Pardew. No.
    Mr. Burr of North Carolina. In hindsight, do you think we 
should have addressed Kosovo?
    Mr. Pardew. No. I think it took all the energy that we 
could muster to end the war in Bosnia at Dayton. I personally 
believe that had we decided to take on other issues at that 
time, it would--it may have caused that very difficult 
negotiation to fail.
    Mr. Burr of North Carolina. The Administration officials 
have said they prefer Montenegro to remain with a restructured 
Yugoslavia. Can a restructured Yugoslavia work?
    Mr. Pardew. With proper leadership, it can.
    Mr. Burr of North Carolina. Describe leadership. Is that--
--
    Mr. Pardew. Something different than what we have right 
now.
    I don't want to be glib, Congressman. It is very difficult 
to deal with the impulses of independence in Kosovo or 
Montenegro or perhaps other places with Slobodan Milosevic 
leading the government in Belgrade, because of the repressive 
measures and the anti-democratic policies of that government.
    I believe that over time, with the change of leadership, 
with the hope of economic development and democracy, that the 
populations there can look at their situation and make more 
rational judgments than perhaps we would make at this point in 
time with the terrible leadership that they have in Belgrade. 
That is what I believe.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Burr.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I know we are 
anxious to go, but one question for the good of the world 
order. I guess I would address this to you, Mr. Wayne. The 
Montenegrins indicate they are going to try to conduct 
negotiation with Serbia about new constitutional arrangements 
for a looser Federal system. If those negotiations fail--and as 
they want the deadline in September, it seems to be likely--and 
they take unilateral action to change their status or role 
within the federation, the Federal Republic, is the U.S. 
prepared for an outbreak of violence in Montenegro?
    What specific steps have the U.S. and NATO taken to prepare 
for humanitarian assistance and for military intervention in 
Montenegro? Why is it, in your judgment, that NATO and the U.N. 
have not accepted the Montenegrins' offer to base their 
operations for Kosovo in Montenegro in order to establish a 
U.N. and a NATO presence in Montenegro, in light of what seems 
to be about to happen in September?
    Mr. Wayne. Well, let me make a couple of initial comments, 
Congressman, and then ask Ambassador Pardew to continue on.
    One is that we have worked very hard, indeed, to support 
the democratically elected regime in Montenegro as have our 
friends and allies in Europe. As you may know, the prime 
minister was present in Sarajevo at the Stability Pact summit, 
and the President met with him in Sarajevo. He has visited and 
been received in a wide range of European capitals, and I think 
he is even in Moscow today--and yesterday--being received at a 
very high level.
    As you also know, NATO issued a policy statement on 
Montenegro very clearly saying that any move by Milosevic to 
undermine that democratically elected government would--to get 
it right--be considered provocative and would be dealt with 
appropriately.
    Of course--excuse me, I meant President Djukanovic, not the 
prime minister, earlier.
    So we have all tried to send a very clear message of 
support and to make clear that if there were any moves against 
that government it would have very, very serious consequences.
    Similarly, we have acted concretely to support that 
government financially and with technical assistance; and 
Ambassador Napper can say more about that.
    Right now, we certainly do support the democratic 
leadership in Montenegro, which still prefers to seek a modus 
vivendi within the FRY. So we are supportive of their efforts 
to have these talks. I think we, you know, will continue to 
express our support for their efforts to that regard.
    As far as looking ahead, I guess I would say, I don't think 
right now it would be productive to address the hypothetical 
that you posed. But let me ask Ambassador Pardew if he wants to 
comment.
    Mr. Pardew. Well, just to reinforce the point that NATO has 
been very firm on Montenegro; in fact, in their summit 
statement in April they said we affirm our strong support for 
democratically elected government in Montenegro. Any move by 
Belgrade to undermine the government of Djukanovic will be met 
with grave consequences.
    So NATO is on record as taking Montenegro very seriously. 
We have supported and will continue to support Djukanovic as 
the democratically elected head of that government, and we want 
to work with him as a model for change in Serbia.
    As to whether we have NATO there or not, that is a 
difficult question. We don't want to put NATO in an awkward 
position relative to the FRY and so forth.
    We are looking at that, just as we are looking at ways that 
we can remove some of the sanctions restrictions on Montenegro 
without benefiting Belgrade.
    These are important points. They are delicate, however, in 
terms of putting NATO or passing NATO through Montenegro, but 
we are looking at it.
    Mr. Bereuter. Gentlemen, my leading question is your 
Capitol Hill warning to be prepared to avert or fight a new 
Balkan conflict sometime after December, at the wrong time of 
the year.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Again, we want to thank our panelists for being with us. We 
regret the interruptions that delayed your testimony.
    Without objection, the Chair will submit questions in 
writing on behalf of Members of the Committee concerning issues 
reviewed in this hearing for an expeditious response in writing 
by the Department of State, and there will be three additional 
days for Members to submit additional material for the record.
    Once again, our thanks go to our official witnesses for 
their testimony today.
    We will now proceed with our second panel.
    Mr. Bereuter.--[Presiding.] As the next panel comes 
forward, I would like to introduce them and say a word or two 
about them. First, Mr. Janusz Bugajski is Director of the East 
European Studies at the Center for Strategic and International 
Studies here in Washington, D.C. He has previously worked with 
Radio Free Europe in Munich and has served as a consultant to 
the U.S. Agency for International Development, the Defense 
Department, the Rand Corporation, BBC Television, and other 
organizations. He has lectured at several universities and 
institutes and has published numerous books and articles on 
East Europe.
    Professor Janine Wedel is an Associate Research Professor 
at George Washington University and a Research Fellow at the 
University's Institute of European Russian and Eurasian 
studies. She has received a number of awards from 
organizations, such as the National Science Foundation, the 
MacArthur Foundation, the Woodrow Wilson International Center, 
the National Council for Eurasian and East European Research. 
She is a three-time Fulbright fellow. Her latest book, 
``Collision and Collusion: The Strange Case of Western Aid to 
Eastern Europe,'' was published just last year.
    Our final witness of the three, Dr. Daniel Serwer, is 
Director of the Balkans Initiative at the United States 
Institute for Peace here in the Nation's Capital. Dr. Serwer 
has received a Ph.D. from Princeton University, served at the 
Department of State as Deputy Chief of Mission and 
Charge'd'affairs at the Embassy in Rome, as a United States 
special envoy and coordinator for the Bosnian Federation--
director of European and Canadian Analysis, and finally as 
Minister Counselor at the Department of the State. At the 
Institute of Peace, he has co-authored a number of studies on 
the Balkans States and worked on regional security issues in 
the Balkans.
    Mr. Bereuter. Panelists, we are very pleased to have you 
here to share your wisdom with us on the important subject of 
the hearings today. I just would note that all of your 
statements will be made a part of the record and you may 
summarize your written statements.
    Mr. Bugajski, we will start with you and welcome.

   STATEMENT OF MR. JANUSZ BUGAJSKI, DIRECTOR, EAST EUROPEAN 
    STUDIES, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Bugajski. Thank you very much and good afternoon, Mr. 
Chairman. Thank you for including me in this important hearing.
    I think it is very important for Southeast Europe and I 
hope it will enhance the U.S. agenda at this very critical 
period in Balkan history.
    I would like just to summarize my written statement in a 
few comments. I believe that the post-war commitment of NATO, 
the United Nations, and the EU to Balkan reconstruction does 
offer a unique opportunity to build stable institutions and 
market economies throughout Southeast Europe. However, to 
ensure success, I think consistent progress must be made in six 
key areas. Otherwise, resources will be squandered, and the 
region will continue to drift toward isolation from Europe.
    These are the six that I would like to outline.
    First, political stability. Long-term governmental 
stability will remain an essential prerequisite for pursuing 
any kind of economic and institutional reforms. Each Balkan 
government, I think, needs to ensure programmatic continuity 
between different Administrations so that the reform process 
does not veer between periods of progress and reversal. Hence, 
I would say all Balkan countries require a cross-party 
commitment to the goals of economic transformation and 
institutional reform, much as we have seen in Central Europe in 
the past 10 years.
    Second, institution building. Successful political 
stabilization requires the consolidation of authoritative 
democratic institutions based on firm constitutional 
principles. The organs of government need to have public 
confidence and the commitment of all major political players. 
In this context, extremist parties advocating authoritarian 
solutions must be marginalized so that they do not undermine 
the Nation's party politic.
    Third, civic society development. Each Balkan country must 
develop a more effective alternative media and a range of 
citizens' interest groups that will significantly enhance the 
democratization process. In the area of minority rights, each 
Balkan state must pursue policies that comply with 
international obligations. Furthermore, development of a 
multifaceted civil society will undercut the focus on exclusive 
ethnic questions that undermine democratic development.
    Fourth, economic progress. A priority for each Balkan 
government is the consolidation of a credible market reform 
program. All too often in the past, vested interest groups have 
stalled this process to their advantage or politicians have 
compromised on many essential market components, for example, 
by maintaining large scale state subsidies to unprofitable 
industries or failing to ensure transparency in privatization. 
A serious and far-reaching reform program cannot be held 
hostage by any political party or economic lobby.
    Fifth, organized crime fighting. Public security organs 
must be empowered to deal with organized crime and corruption. 
Both an internal but also an international strategy must be 
pursued by each Balkan state working in tandem with neighbors. 
The pervasiveness of politically connected criminality 
threatens to obstruct the region's reform process. It 
consolidates the control of special interest groups, encourages 
radicalism, dissipates public confidence in the transformation 
process and jeopardizes economic progress.
    And sixth, regional cooperation. Regional cooperation, I 
think, can be buttressed through a range of institutions and a 
whole array of arrangements: governmental, military, 
parliamentary, political party, local government, as well as 
the NGO sector. Economic transformation must also be a region-
wide priority, as the failure of economic reform will directly 
challenge all nearby states.
    More emphasis also needs to be placed on building economic 
networks that enhance the reform process in each country. In 
sum, I would say the Balkan countries must take a much more 
active role in promoting regional stability and regional 
development and not focus only on their domestic concerns.
    In conclusion, I would just like to say, reconstruction not 
only provides the opportunity for material development, 
economic development, but also for representative democracy. 
The commitment to reconstruct must be matched by a commitment 
to reform. The ultimate objective for all these states must be 
inclusion and integration in the major European and 
transatlantic institutions based on solid democratic and 
capitalist foundations, and I believe the U.S. can clearly 
assist in this process. Thank you.
    Mr. Bereuter. Thank you, Mr. Bugajski.
    Mr. Bereuter. We would now like to hear from Dr. Wedel. You 
may proceed as you wish. Your entire statement is a part of the 
record.

    STATEMENT OF PROFESSOR JANINE WEDEL, ASSOCIATE RESEARCH 
            PROFESSOR, GEORGE WASHINGTON UNIVERSITY

    Ms. Wedel. Thank you very much for the opportunity to speak 
with you today. My comments today are based on an extensive 
study of U.S. assistance to Central and Eastern Europe, Russia 
and Ukraine over the past 10 years.
    I am not an expert on the Balkans, but my research on U.S. 
assistance programs has given me an acute awareness of the 
promises and pitfalls of aid to Eastern Europe, many of which 
are discussed in my recent book, ``Collision and Collusion: The 
Strange Case of Western Aid to Eastern Europe,'' and in 
previous testimony before this Committee and others.
    The following six cautionary lessons arise from my 
research:
    First, we need to constantly remind ourselves that aid is 
by no means just a technical matter. It is not just about 
getting the economic prescriptions right. Aid is a complex task 
of societal, political and social challenges that must be taken 
into account if it is to have the desired stated goals. It must 
be well conceived, well planned and implemented systematically, 
in accordance with those challenges.
    It is important that the beneficiaries of the aid are not 
just western consulting firms looking for fat contracts but 
also the people and the communities that we want to help.
    It would be elusive to think that our aid programs alone 
could build democracies and market economies. On the other 
hand, poorly conceived and administered aid certainly can do 
damage, both to the region and to the image of the United 
States there. As Joseph Stiglitz, chief economist at the World 
Bank, once suggested, we should adopt, ``a greater degree of 
humility .  .  . and acknowledgement of the fact that we do not 
have all of the answers.''
    Second, we should avoid the so-called ``Marriott Brigade'' 
syndrome. The Marriott Brigade was a term the Polish press 
coined in 1990-1991 for the short-term ``fly in, fly out'' 
consultants who were paid to deliver technical assistance to 
Eastern European governments and officials. The consultants 
stayed at Warsaw's pricey Marriott and hurtled among five-star 
hotels across the region, collecting data and advising on 
economic and political reform.
    Recipient officials, many of whom were new at their jobs, 
welcomed the consultants at first but after hundreds of fact-
finding and first meetings with an endless array of consultants 
from donor organizations and international financial 
institutions, many officials were disillusioned and frustrated. 
We must avoid that situation in the current effort. Bringing in 
team after team of high-priced consultants, many of whom will 
never return, creates a burden for local officials and stirs 
resentments against the consultants and the donors.
    It is important not to duplicate fact-finding and to keep 
``first visits'' to a minimum. As we have seen in Eastern 
Europe, local perceptions of aid on the part of officials, 
politicians, and citizens matter and sometimes even shape aid 
outcomes.
    Third, it is crucial to carefully and prudently select our 
prospective partners and representatives. We must be careful 
not to play favorites among competing local interests and 
beneficiaries. The record of U.S. aid to Russia in particular 
shows that selecting specific groups or individuals as the 
recipients of uncritical support both corrupts our favorites 
and delegitimizes them in the eyes of their fellow citizens. 
Given the discretion that political functionaries in the region 
have to appropriate large portions of state resources and 
budget to themselves and to their cronies and the considerable 
corruption on all sides, there is an ever-present danger of 
diversion of foreign aid. We must also be aware of potential 
collusion among consultants and local elites toward that end.
    As we have learned, or should have learned in Russia, 
putting aid in the hands of just one political-economic group 
or clan creates opportunities for the misappropriation of 
moneys to private and/or political purposes and very quickly 
undermines donor efforts at democracy building.
    Further, experience shows that it is simply wrong to think 
that institutions can be built by supporting specific 
individuals instead of helping to facilitate processes and the 
rule of law. Many reforms advocated by the international aid 
community, including privatization and economic restructuring, 
depend on changes in law, public Administration and mindsets 
and require working with the full spectrum of legislative and 
market participants, not just one group or clan.
    Fourth, we should help to build administrative and legal 
structures at the level of cities, regions, and towns. In 
general, the lower the administrative level of our efforts, the 
better. Any donor efforts must depend on not just speaking with 
politicians at the top but on working with an array of local 
people and communities. U.S. officials and advisors need to 
establish contacts with a wide cross-section of the regional 
and local leadership--politicians, social and political 
activists, and community workers. For example, some aid-funded 
programs to develop the economy from the bottom up have been 
useful and have created goodwill.
    Fifth, we should be clear-eyed about the real potential of 
the so-called ``independent sector'' and nongovernmental 
organizations or NGO's. Donors often invest high hopes in the 
ability of NGO's to build democracy. They often assume that 
NGO's are similar to their western counterparts, despite the 
very different conditions under which they developed and 
operate. But in Eastern Europe, the officials, the individuals 
and groups charged by the west with public outreach--often the 
most vocal local players--were not always equipped for that 
role. At least in the early years of the aid effort, NGO's 
often distributed western perks to themselves and their peers 
on the basis of favoritism rather than merit. Here again, there 
can be no substitute for donor knowledge of local politics, 
conditions, and culture. The challenge for the donors is in 
enlisting the expertise of people sufficiently informed, 
intuitive, and committed to aid efforts in the new environment 
and in designing assistance to foster those efforts.
    Mr. Bereuter. Dr. Wedel, I am sorry I am going to have to 
interrupt you because I have just a couple of minutes to get to 
the vote. I know we haven't come to your last concluding 
remarks and we will pick that up when we come back. One of my 
colleagues may take the Chair in five minutes or so. If not, we 
will be back at it in about ten. So at this point, hold your 
thought for the final conclusion, and the Committee stands in 
recess.
    [Recess.]
    Mr. Cooksey.--[Presiding.] Professor Wedel, if you would 
proceed, we are passing the baton.
    Ms. Wedel. Thank you. I won't reiterate my first five 
points.
    My sixth and final point is that the United States should 
embark on a broad-based policy to encourage governance and the 
rule of law. To foster reform, I have learned from my study in 
Eastern Europe that donors need to work with a broad base of 
recipients and support structures that all relevant parties can 
participate in and effectively own, not just one political 
group or clan or faction.
    This is, admittedly, not an easy task. The major challenge 
is how to help build bridges in a conflicted environment with 
historical distrust and many competing groups and very few 
cross-cutting ties among them.
    Although by no means easy, the task of aid workers is 
precisely to build contacts and to work with all relevant 
groups toward the creation of transparent, nonexclusive 
institutions and against the concentration of influence and aid 
in just a few hands.
    Thank you very much.
    Mr. Cooksey. Just before we move to the next witness, you 
are an anthropologist by education, are you not?
    Ms. Wedel. I am.
    Mr. Cooksey. In ten words or less, what do you think of the 
prospects of achieving this last, this sixth goal, about the 
broad-based policies and about the aid workers being able to 
accomplish it, viewed in light of the history that has occurred 
in this area?
    Ms. Wedel. I began my statement by saying that I am not an 
expert on the Balkans, but my experience in looking at aid 
programs in Central Europe, Russia and Ukraine is that there 
are competing political, economic, financial groups at the very 
local level. Russia by the way, is a very difficult environment 
to work in even though the historical animosities aren't nearly 
as much at the forefront and the country has not been wrecked 
by war as have been the Balkans. The task is to begin to create 
incentives for diverse groups to work with each other. It is 
critical not to play favorites by giving one group aid 
resources over others--that is a very destructive aid policy.
    My experience is that can be done. It is not easy to do. It 
requires a lot of local knowledge, but money can provide an 
incentive, and if you find experts who know the local 
situation, they can help put together programs that will 
provide incentives for people to do reasonable projects. It can 
be done but it is not easy. It requires a lot of local 
knowledge.
    Mr. Cooksey. And this gets back to your third point about 
prudent selection of the partners that you would be doing this 
with?
    Ms. Wedel. Absolutely.
    Mr. Cooksey. What model do you think exists for this having 
been done successfully? Where in Europe or any other part of 
the world? Can you think of a particular place?
    Ms. Wedel. Yes. I would point to several kinds of programs. 
One that I looked at very closely was a program that was in 
part sponsored by the Congressional Research Services and some 
of the congressional Committees, and that operated effectively 
in Poland and, I believe, in some countries further east.
    That program was to build an institution to provide 
information and infrastructural support to the Polish 
Parliament--to everybody in the parliaments. At first, in 1990, 
1991, 1992, this was an absolutely revolutionary idea. ``You 
mean you are going to work with those guys, not just us? '' 
That was a revolutionary idea. But eventually people saw that 
it made sense. They saw that independent information, that an 
infrastructure, a system could be built that everyone could 
use; that it wasn't just about politics--just for me and my 
group--but that the benefit would go to all groups.
    We eventually saw in Poland the value of having such an 
independent institution modeled after the Congressional 
Research Services, and aid from the United States played a 
major role in helping to create that.
    As I said, it was really a different concept at the 
beginning because people were not interested and certainly not 
accustomed to sharing information with a different political-
economic group. It was a foreign idea, but it could be done if 
you had the right people on the ground who understood the 
problems and had the right resources.
    Mr. Cooksey. Can you come up with another example? Because 
really Poland is a rather homogenous group with one religion 
and they have done very well there, but the Polish people have 
a lot more structure than anyone in the Balkans, it seems.
    Ms. Wedel. Well, that is what it may look like from the 
outside, but, in fact, there were many groups that were 
competing on the ground for resources. And when you come in 
with foreign aid, quickly you find that you have a lot of 
competitors for that money. I think in that respect, the 
Balkans will be very similar. The animosities may be longer 
lasting, deeper.
    Mr. Cooksey. From an economic standpoint?
    Ms. Wedel. Sorry?
    Mr. Cooksey. From an economic standpoint? From the fact 
that they are all looking for this aid, this economic aid, and 
you think they can overcome their ethnic, religious, racial 
diversity then?
    Ms. Wedel. As I stated in my fourth point, I think that it 
is very important to emphasize local administration and legal 
structure and to help to build those infrastructures. Without 
those infrastructures in place, there is probably not much hope 
of overcoming those animosities. The only choice we have is to 
help develop those infrastructures. That is the only choice we 
have. If we come in and say we are going to support this group 
or another, we are, at the outset, doomed to failure.
    Mr. Cooksey. Thank you.
    The Chairman is back.
    Mr. Bereuter.--[Presiding.] Dr. Cooksey, thank you for 
filling in; and, Dr. Wedel, for concluding your testimony.
    We would like to go back, though, to hear from Dr. Serwer 
to make his presentation. Your entire statement will be made a 
part of the record. You may proceed as you wish, and then we 
will open it up for questions for all three of you.

   STATEMENT OF DANIEL SERWER, DIRECTOR, BALKANS INITIATIVE, 
               UNITED STATES INSTITUTE FOR PEACE

    Dr. Serwer. Thank you, Mr. Chairman. I would like to start 
by thanking Mr. Smith for his kind opening remarks about 
previous testimony before the Helsinki Commission.
    My name is Daniel Serwer. I direct the Balkans initiative 
at the U.S. Institute of Peace, which takes no positions on 
policy issues. The views I express here are my own. But the 
Institute is well-known for its efforts to promote democracy in 
Serbia, reconciliation in Bosnia and Herzegovina, and a 
regional approach to the Balkans, one that emphasizes 
preventive diplomacy and peaceful conflict resolution.
    The main U.S. Interest in the Balkans is stability. 
Instability there cannot be ignored, because of its effect on 
our European allies and on American public opinion. There are 
no vital resources at risk. Transportation routes through and 
near the Balkans are not critical to the United States and no 
Balkan country threatens U.S. or Allied territory.
    The United States has nevertheless found itself leading the 
NATO alliance twice into air wars in the Balkans, followed by 
expensive ground interventions.
    Why? What we have seen in Bosnia and in Kosovo is the 
failure of preventive diplomacy. By not undertaking early and 
relatively cheap efforts to prevent conflict, we have been 
forced to intervene after conflict has begun at far greater 
cost. The exception proves the rule: in Macedonia, early 
deployment of a small U.N. peacekeeping force and an energetic 
mission from the Organization for Security and Cooperation in 
Europe has so far allowed a healthy democracy to develop in 
that ethnically divided country, preventing a conflict that 
many thought inevitable.
    Are there other predictable conflicts that could break out 
in the Balkans? Yes, is my answer. Are we and our allies doing 
what is necessary to prevent them? ``No.'' There are a number 
of laudable efforts under way, but we need to be doing more.
    The main threat to Balkans stability today is the same as 
10 years ago: The Milosevic regime in Belgrade, which has used 
conflict against non-Serbs as a means of staying in power. 
Milosevic will strike again, perhaps in Montenegro or in 
Sandjak, an area almost evenly divided between Muslim and 
Orthodox Slavs, or in Vojvodina, where there are Hungarian and 
Croat minorities. In each of these areas, the international 
community should be undertaking preventive efforts aimed at 
promoting inter-communal understanding and ensuring that 
Belgrade cannot exploit ethnic strife.
    The regime may also strike next against discontented Serbs, 
who are today the most serious threat to Milosevic's hold on 
power. Courageous people have been demonstrating against the 
regime throughout Serbia since the end of the war, but until 
last week U.S. assistance for democratization there was frozen. 
There is still an urgent, immediate need for small amounts of 
money to support those seeking democratic change in Serbia.
    Friday in Sarajevo, the President announced a $10 million 
program for Serbian democratization, doubling the pre-war 
amount. This is a step in the right direction, but still short 
of the resources the Institute's Balkans working group has 
recommended and far less than the amount Senator Helms has 
advocated. The President's program is a good first step, but a 
major increase will be needed next fiscal year.
    Mr. Chairman, conditions in Serbia do not favor the 
development of democracy. Poverty, disillusion, and resentment 
could create a volatile situation this winter. I believe it is 
important for the West to provide humanitarian assistance to 
Serbs and even to repair essential humanitarian infrastructure, 
provided the resources and credit cannot be diverted to the 
Milosevic regime. This would mean providing assistance through 
opposition-controlled municipalities, nongovernmental 
organizations, and the Church.
    At this point, Mr. Chairman, I would like to submit for the 
record an institute paper called Moving Serbia Toward 
Democracy, which includes a number of ideas along these lines.
    Mr. Bereuter. Without objection, that will be the order.
    [The information referred to appears in the appendix.]
    Dr. Serwer. Thank you. We should also be supporting fragile 
democracies in Albania and Macedonia that could collapse under 
pressure of their own internal problems. The main issue in 
Albania is security. A small NATO presence could go a long way 
toward helping Albania buildup its own security forces. I have 
been informed this morning, Mr. Chairman, that the North 
Atlantic Council on Friday has approved the continuation of a 
small NATO force in Albania.
    In Macedonia, the issues are both economic and inter-
ethnic. Small resources invested now could prevent future 
interventions a thousand times more costly.
    Bosnia and Kosovo will, of course, continue to attract the 
bulk of U.S. and Allied resources. Failure of either 
intervention would not only destabilize the Balkans but also 
create big problems elsewhere. But in the rush to intervene, we 
have all too often failed to exploit indigenous capacities. 
This is especially damaging in Kosovo, where before the war an 
extensive civil society existed. Indigenous Kosovar 
institutions should be empowered rather than swamped.
    In Bosnia, the missing ingredient is reconciliation, which 
is impossible so long as indicted war criminals are at large 
and their associates occupy positions of power. NATO should 
arrest Radovan Karadzic and any other indictees still at large 
in Bosnia and Herzegovina. It will then be possible to mount a 
serious effort to enable people who want to do so to return to 
their homes.
    No less important is the right of Serbs to return home, 
especially in Croatia and in Kosovo. Neither should enjoy the 
full benefits the United States and its allies have to offer 
until they are prepared to establish a rule of law that 
protects all people, as well as the open media and transparent 
election processes required in a democracy.
    Mr. Chairman, the President went to Sarajevo last week to 
launch a Stability Pact that should give a sense of direction 
and commitment to all allies and to the democracies in the 
region. That pact must now fill its political, economic, and 
security baskets. Empty promises will not do the trick. It is 
especially important that the European Union accelerate its 
opening toward the Balkans, forming a customs union and 
encouraging monetary stabilization through the use of the Euro. 
Europe, because of its proximity, is vulnerable to Balkans 
instability and should bear most of the burden of bringing 
peace and prosperity to the region.
    But without U.S. Commitment and leadership, the task will 
not get done. As we enter the 21st Century, the Balkans must 
not be allowed to generate the kinds of conflict and 
instability that have marred their history in the 20th.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you very much, Dr. Serwer.
    Mr. Bereuter. I would like to begin with a few questions. I 
will turn to Mr. Cooksey then.
    Mr. Bugajski, you talk about the institutions of the civil 
society as a part of your statement. I am wondering if you 
would tell me what your thoughts are about us overcoming the 
ethnic/religious hatreds that have existed in so many parts of 
Yugoslavia and have been reignited in Bosnia, in Kosovo. Is it 
possible, in the shorter term for the next generation or two, 
for these people who have seen atrocities committed against 
each other, renewing memories of the atrocities committed in 
World War II by one group against another and in some cases by 
both sides, is it possible for these people to live together 
and to begin to restore in the short term the elements of a 
civil society?
    Mr. Bugajski. Thank you. Well, let's put it this way: 
Inter-ethnic reconciliation is a long-term process, but I think 
very concrete steps in that direction can be made; first of 
all, by the ouster or replacement of the very political forces 
that have promoted ethnic division, ethnic conflict. Ethnic 
conflict was not inevitable in the Balkans, just as it isn't 
anywhere in Europe. It was deliberately promoted by communist 
politicians in order to stay in power.
    Second, I think justice needs to seem to be done. That is 
why I completely agree that war criminals such as Karadzic, 
Mladic, as well as Milosevic and his people need to be 
arrested, need to be tried. Justice needs to be shown to be 
done as well as being done.
    Third, I do think there needs to be much more work at a 
local level. I think this has been part of the problem in 
Bosnia, why refugees haven't returned, because some of the 
nationalists who promoted the war are still in power. They 
still control the local economy; they control the local 
political system.
    So I think a lot more work needs to be done at the local 
level to build the very institutions that can promote at least 
ethnic coexistence, if not ethnic harmony, but it will be a 
long-term process.
    Mr. Bereuter. Thank you.
    Mr. Bereuter. Professor Wedel, I was very pleased to hear 
some of your categorization of the mistakes that had taken 
place in our assistance programs and other international 
assistance programs for eastern and parts of Central Europe. 
Not to belittle your research, but some of them seem too self-
evident and predictable, but I like the way that you apparently 
have categorized them. I want to read your book.
    The Marriott Brigade syndrome, for example, caught my 
attention. It seemed to me, from the beginning, that there was 
kind of an executive branch pork barrel that took place with 
incestuous relationships between people in government: in AID, 
above AID in State, with the people that they knew and had 
worked with in other institutions here and in other kinds of 
elite educational institutions, with people in the beltway 
bandit organizations today. Just an incredible amount of money 
spent, as you said, making first-time visits all the time with 
great resentment.
    We knew that wouldn't work. We knew that was a waste of 
resources. We knew it wasn't the best use of resources in any 
case, but how do we keep people who make those decisions from 
engaging in this kind of pork barrel activity?
    That is really what it is. Not by the legislative branch 
but by the executive branch. There was very little earmarking 
of money for particular programs or institutions by Congress in 
this time that went by, but that was not the case in the 
executive branch. How do we avoid doing something that is 
obviously not the most efficient use of our resources?
    Ms. Wedel. What you are describing is at least in part a 
symptom of the fact that the aid effort was very scattershot, 
not very well planned, and not exactly high level. 
Rhetorically, it was always compared to the Marshall Plan, but 
that was a fallacious comparison, not only because there was so 
little capital assistance available in comparison but also 
because it was not a particularly high level effort and it was 
constructed so that lots of different groups got a piece of the 
pie. Once you have that setup you are naturally going to have 
many people who are going to be vying for contracts.
    So the first thing is to have a very well-planned, well-
conceived aid effort, which isn't set up so that everybody gets 
something. It must have a higher level of leadership so it can 
have a higher promise and potential.
    Mr. Bereuter. Thank you. I would ask Dr. Serwer a question 
or two and then turn to my colleague.
    As you point out, the emphasis of the United States should 
be on stability in this region. You talked about the need for 
preventive action; and I think you are absolutely right, that 
it is self-evidently important. I know there was a high 
official ministry in the Federal Republic of Germany who looked 
at the situation, eventually resigning because he felt so 
guilty about the decision that had been made to recognize the 
independence of Slovenia, knowing full well what that would 
lead to in Croatia. Despite all of the advice from other 
countries to the contrary, Germany took a very unconventional 
step for them in going out front on something. One of the 
lessons I draw from this, which is tough for an American to 
conclude, is that there are some things more important than 
self-determination and one of them was to focus on stability 
for the region. Perhaps you heard my comments about Montenegro 
and the invitation to the U.N. and NATO and the kind of talks 
in which they hope to be engaged in September with Belgrade 
relating to a looser Federal structure in Yugoslavia, and the 
likelihood of the lack of success for that effort.
    What do you think we should be doing now, speaking of 
preventive action, in Montenegro to keep that from degenerating 
into the next Balkan conflict? And, what do you think perhaps 
we could have done when we had the first engagement of Croatian 
and Serbian troops in eastern Croatia?
    Was that a time when we could have militarily engaged if 
the U.N.--excuse me, if NATO was ready in this post-cold war 
era?
    Dr. Serwer. It is difficult, Mr. Chairman, to second-guess 
people about things that happened in Croatia that long ago, but 
your question about Montenegro is a very current and difficult 
one, I will say that.
    I believe that we should be establishing as much of an 
international presence in Montenegro as we possibly can at this 
point, and I find ambiguous--dangerously ambiguous--the 
Administration's statements about what it will do if Montenegro 
is attacked. I think we know from the past that ambiguity with 
Mr. Milosevic leads to a continuous raising of the threshold 
for action; and raising the threshold for action leads to the 
need for greater and greater responses.
    One British magazine has counted 44 final warnings to Mr. 
Milosevic since 1991. I am not advocating one more final 
warning about Montenegro, but I do believe that the 
Administration has to think hard about what it will do if 
Montenegro is attacked. I think they have to recognize that 
within the Alliance there is not a great deal of support for 
going to war again over Montenegro. They also have to realize 
that the best prevention is deterrence in this case; the 
Montenegrins are going to have to be strong and the 
international presence in Montenegro should be strong.
    Mr. Bereuter. Thank you, Dr. Serwer.
    I would like now to turn to Dr. Cooksey for questions he 
may have.
    Mr. Cooksey. Thank you, Mr. Chairman.
    I don't know whether you heard my comments on my impression 
that most of the world leaders of this generation are 
narcissistic whimpy-type guys; and Milosevic was that way in 
his youth in his high school--poor health. And yet once they 
gain some position of power, they suddenly become warriors. 
Maybe they are too young to be cold war warriors, but warriors 
they are in their own mind, and so forth.
    What lessons do you think that we should have learned in 
Bosnia that we can translate into avoiding mistakes in this 
area in Kosovo and dealing with what remains of Yugoslavia, Dr. 
Serwer?
    Dr. Serwer. My view, Mr. Cooksey, is that there are several 
lessons that should be learned. The first lesson is that in 
these international interventions, we can't afford a divided 
command. We need a unified command, not only of the military 
but of the civilians as well.
    Mr. Cooksey. Can I ask a question? Would you elaborate on 
the question that I asked in the first meeting about stopping 
the Russians on their way to the airport? Was that a 
manifestation of what you are talking about?
    Dr. Serwer. It was a manifestation on the military side of 
a lack of unity of command, both in Bosnia and in Kosovo; and I 
think it was a dangerous moment and an edifying moment. But I 
was referring to something different.
    I believe that the pattern we followed in Bosnia of 
dividing the military from the civilian command and having a 
military commander who is not responsible for civilian 
implementation and a civilian commander who can't command 
military forces was a mistake in Bosnia. It was done to satisfy 
the United States, which wanted to maintain intact the NATO 
chain of command.
    Mr. Cooksey. You are referring to Bosnia now?
    Dr. Serwer. Yes, I am referring to Bosnia now.
    Now, in Kosovo, in theory, the civilian and military 
commands have, again, been separated, and I think that was a 
mistake. In practice, however, as somebody indicated already 
this morning, the military is in charge in Kosovo at this 
moment.
    Why is that? The reason is that there is no preparedness on 
the civilian side. The military worries when its preparedness 
falls a couple of percentage points off 100 percent, as rightly 
it should. There is no concept of preparedness on the civilian 
side, except perhaps among the NGO's who do humanitarian relief 
work, but the U.N. essentially has to go out and hire all of 
these folks every time there is an intervention. There is very, 
very little sense of preparedness. I think we are seeing some 
of the negative consequences of that in Kosovo today in the 
truly tragic treatment of the Kosovar Serbs.
    So I believe in unity of command. I believe the command 
should have been unified in Kosovo under the military 
commander, a NATO military commander, at least for the first 
six to eight months of the intervention. I think the ambiguity 
about who is really in charge is most unfortunate in Kosovo.
    I think there are other things we should have learned from 
Bosnia, including that there are indigenous organizations that 
can be used in the peace process. And in Kosovo you had a very 
extensive array of nongovernmental organizations, including a 
whole educational system which was nongovernmental because it 
existed independently of the Serbian educational system.
    One of the incredible things about Kosovo today is that the 
kids are back in school; that alternative educational system 
has enabled children to go back to school almost immediately. 
Yet the international community is depending very little on 
these indigenous capacities and has to some degree even avoided 
allowing them access to the U.N. and to the international 
structure being created. This is clearly an error. Kosovo is 
liberated territory. It is not conquered territory. It should 
be treated the way liberated territory is treated, which 
includes the most rapid turnover possible of functions to local 
organizations.
    Now, there is a big problem, because those local 
organizations are, of course, ethnically based for the most 
part, and that is where the U.N. and the NATO forces have to 
play a role in insisting on the ethnic integration of those 
institutions. You cannot have, in Kosovo, a true democracy that 
treats Serbs as badly as they are being treated today.
    Mr. Cooksey. When you referred to these indigenous 
organizations in the education system, you are telling me there 
is an educational system outside of the government's 
educational system; it is like private schools or parochial 
schools?
    Dr. Serwer. They were schools that were created, Mr. 
Cooksey, by the Albanians when they were excluded from the 
Serbian educational system.
    Mr. Cooksey. From the public education system?
    Dr. Serwer. Yes. So they are private in a sense. They were 
run mostly in people's homes. They weren't run in school 
buildings, and they have been reopened almost immediately with 
the return of the refugees and displaced people.
    Mr. Cooksey. Sounds similar to some of the debates we have 
had in this body.
    Thank you, Dr. Serwer.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you very much, Dr. Cooksey.
    I would like to announce and introduce Elmer Brok, who is 
the new Chairman of the Foreign Relations Committee of the 
European Parliament, an old friend of this Member and many 
Members of the House of Representatives.
    Great to have you here, Elmer.
    Dr. Cooksey, would you see if Mr. Engel has any questions, 
and then would you conclude the hearing for me so that I can 
proceed with Mr. Brok?
    I want to thank all of our witnesses for their effort 
today. It was very helpful to us.
    Dr. Cooksey, I turn it over to you so that you may close 
out the hearing.
    Mr. Cooksey.--[Presiding.] Mr. Engel.
    Mr. Engel. Thank you.
    I just want to ask a couple of, I think, relatively quick 
questions. I have been perhaps the leading advocate in the 
House for independence for Kosova. The reason I have done it, 
and I am more convinced than ever that nothing else long range 
will work, is because I think that, first of all, the Belgrade 
regime has lost any kind of right that it ever had to govern in 
Kosova because of the ethnic cleansing that went on and all the 
other horrible things. I think that if NATO wants to treat 
Kosova as a protectorate forever and occupy it forever, then we 
can continue to do that. But, I think if we don't want to do 
that, we don't want U.S. troops on the ground forever, then 
independence is the only solution. I have often said that when 
the former Yugoslavia broke up, the other citizens of the 
former Yugoslavia, the Bosnians and the Croats and the 
Slovenians and the--who am I leaving out?
    Mr. Bugajski. Macedonia.
    Mr. Engel. The Macedonians, all had the right to self-
determination. I believe that the Kosovar people should have 
the same right, as well. I would like to hear what the panel 
thinks about that.
    I want to also add that as someone who, again, is very 
sympathetic to what the Kosovar Albanians have gone through for 
many, many years, I, as strongly as anyone else, condemn 
atrocities committed on both sides. I think that the killing of 
the 14 Serbian farmers was unfortunate, as the killing of any 
innocent civilian is unfortunate. One of the things that I 
think we have to resist, though, is to put them both on a moral 
equivalency as if somehow the atrocities have been equal on 
both sides.
    While we must condemn them on all sides, and I condemn 
every atrocity, be it committed by a Serb or an Albanian, I 
think that we have to understand that the ethnic cleansing that 
went on--I heard one of my colleagues on the floor the other 
day say, well, it wasn't 100,000 ethnic Albanians that were 
killed during the NATO bombing campaign; it was only 10,000--
and I thought, well, you know, if I had a family member who was 
one of the 10,000, that is no solace to me that it wasn't 
100,000. So, I think we need to be careful about putting the 
atrocities on a moral equivalency. But, I am convinced more 
than ever that independence is the only solution.
    So I would like to hear some of the comments. I know, Mr. 
Bugajski, we have had some discussion about this in the past. I 
would be interested in hearing what you have to say about this 
and the other Members as well.
    Mr. Bugajski. Thank you. I completely agree that without 
independence for both Kosovo and Montenegro, we are going to be 
faced with continuing instability, because Milosevic will 
continue to manipulate those differences, both ethnic and 
republican, within the remaining Yugoslavia. Yugoslavia is 
finished, and if we do not take appropriate action, if we do 
not have a clear objective, two or three years down the road we 
will be faced with a major policy problem, how to deal with a 
semi-independent Kosovo Administration and a Serbia that 
demands Kosovo back.
    I think now is the time to decide on Kosovo's future 
status, not in two years, not in three years' time, and the 
only people who can decide are the population of Kosovo.
    The other question as far as expulsion of Serbs or the 
fleeing of Serbs, I don't think there is any equivalence. The 
attacks on the Albanian population were government ordered, 
systematic, orchestrated, and planned well in advance and 
carried out with incredible brutality. What we are now 
witnessing in Kosovo is somewhat different. Quite frankly, I am 
surprised at the low level of revenge of a lot of returning 
Albanians. The number of deaths, I think, are under 100, on 
both the Albanian and Serbian side.
    It is terrible, of course, that Serbs are fleeing, 
particularly the innocent ones, but I don't think it is 
systematic, this is not ordered by any Albanian organization. 
These are local, sporadic revenge attacks. All the more reason 
that we need a systematic system of justice in Kosovo, both to 
try the war criminals that are present, but also to prevent new 
crimes.
    And, third, there is a third wave of expulsions which has 
not really been reported in the press, which is a continuing 
expulsion of Albanians from Serbia proper into Kosovo. Between 
5,000 and 10,000 have already been forced out of their homes. 
We have been focusing on the Serbs that are leaving Kosovo. 
There is also a huge Albanian community within Serbia proper 
that is currently experiencing what is probably similar to what 
some of the Kosovo Albanians faced just a few weeks ago. Thank 
you.
    Mr. Engel. Thank you, Mr. Bugajski. Dr. Serwer.
    Mr. Serwer. Mr. Chairman, I wonder if I could also respond 
because I disagree with Mr. Bugajski on this point. I think, 
yes, that the question of Kosovo's future status will have to 
be taken up. I don't believe for a moment that there is an 
equivalency between the dimensions of the horrors that were 
committed against the Albanians and what is going on with the 
Serbs today.
    But I also believe that no people can claim independence 
under the circumstances that exist in Kosovo today. It is 
absolutely critical that we not embark on independence for 
states that do not have a rule of law, that do not have a 
democratic system in place. There is no question, quite apart 
from the question of equivalency, that the current vendetta 
against the Serbs in Kosovo is going to set back the cause of 
those who seek self-determination for Kosovo.
    Mr. Engel. I understand my colleague has to go. So I will 
accede to that, and I thank him.
    Mr. Cooksey. Go ahead. Do you have another question?
    Mr. Engel. I want to talk about the prisoners, the Albanian 
prisoners that were taken out of Kosovo into Serbia. We 
understand there are many, many Albanians, ethnic Albanians 
from Kosovo now in jails in Belgrade and in Serbia. I think 
that that is an issue that the West needs to raise. We, 
unfortunately, did not raise that issue when we negotiated the 
withdrawal of the Serbian forces.
    And I just wonder if anybody has any comments on that.
    Mr. Cooksey. Yes, Dr. Serwer.
    Dr. Serwer. Mr. Chairman, Mr. Engel, I think this is really 
a disaster story. I think we need to raise the diplomatic level 
of our protests on this issue. I was informed yesterday that 
Professor Bardhyl Caushi, whom I know personally from some 
Institute activities, was among those arrested and is now in 
prison in Serbia.
    I find it outrageous that more has not been done on this 
issue, and I think we simply have to raise our voices and 
insist that these people be released.
    Mr. Engel. Thank you. I will turn back the chair. I just 
wanted to say that I had an amendment which was passed 
unanimously by the House in a recorded vote, there wasn't one 
negative vote, demanding the release of these prisoners and the 
accounting for them.
    I thank my colleague for his time.
    Mr. Cooksey. Surely. We want to thank our witnesses for 
coming today for their testimony, and, most importantly, for 
their patience with interruptions that we have. We still have 
to vote casionally, you know.
    The Committee may followup with additional hearings on this 
subject. This, I am sure, will be an ongoing issue and subject 
of discussion, and yet I feel that your testimony gave us and 
provided a really good foundation for where we need to go. 
Giving us good background and you have impeccable credentials, 
we are glad to have people of your caliber here. The Committee 
stands adjourned.
    [Whereupon, at 1:33 p.m., the Committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             August 4, 1999

=======================================================================

    [GRAPHIC] [TIFF OMITTED] T2629.001
    
    [GRAPHIC] [TIFF OMITTED] T2629.002
    
    [GRAPHIC] [TIFF OMITTED] T2629.003
    
    [GRAPHIC] [TIFF OMITTED] T2629.004
    
    [GRAPHIC] [TIFF OMITTED] T2629.005
    
    [GRAPHIC] [TIFF OMITTED] T2629.006
    
    [GRAPHIC] [TIFF OMITTED] T2629.007
    
    [GRAPHIC] [TIFF OMITTED] T2629.008
    
    [GRAPHIC] [TIFF OMITTED] T2629.009
    
    [GRAPHIC] [TIFF OMITTED] T2629.010
    
    [GRAPHIC] [TIFF OMITTED] T2629.011
    
    [GRAPHIC] [TIFF OMITTED] T2629.012
    
    [GRAPHIC] [TIFF OMITTED] T2629.013
    
    [GRAPHIC] [TIFF OMITTED] T2629.014
    
    [GRAPHIC] [TIFF OMITTED] T2629.015
    
    [GRAPHIC] [TIFF OMITTED] T2629.016
    
    [GRAPHIC] [TIFF OMITTED] T2629.017
    
    [GRAPHIC] [TIFF OMITTED] T2629.018
    
    [GRAPHIC] [TIFF OMITTED] T2629.019
    
    [GRAPHIC] [TIFF OMITTED] T2629.020
    
    [GRAPHIC] [TIFF OMITTED] T2629.021
    
    [GRAPHIC] [TIFF OMITTED] T2629.022
    
    [GRAPHIC] [TIFF OMITTED] T2629.023
    
    [GRAPHIC] [TIFF OMITTED] T2629.024
    
    [GRAPHIC] [TIFF OMITTED] T2629.025
    
    [GRAPHIC] [TIFF OMITTED] T2629.026
    
    [GRAPHIC] [TIFF OMITTED] T2629.027
    
    [GRAPHIC] [TIFF OMITTED] T2629.028
    
    [GRAPHIC] [TIFF OMITTED] T2629.029
    
    [GRAPHIC] [TIFF OMITTED] T2629.030
    
    [GRAPHIC] [TIFF OMITTED] T2629.031
    
    [GRAPHIC] [TIFF OMITTED] T2629.032
    
    [GRAPHIC] [TIFF OMITTED] T2629.033
    
    [GRAPHIC] [TIFF OMITTED] T2629.034
    
    [GRAPHIC] [TIFF OMITTED] T2629.035
    
    [GRAPHIC] [TIFF OMITTED] T2629.036
    
    [GRAPHIC] [TIFF OMITTED] T2629.037
    
    [GRAPHIC] [TIFF OMITTED] T2629.038
    
    [GRAPHIC] [TIFF OMITTED] T2629.039
    
    [GRAPHIC] [TIFF OMITTED] T2629.040
    
    [GRAPHIC] [TIFF OMITTED] T2629.041
    
    [GRAPHIC] [TIFF OMITTED] T2629.042
    
    [GRAPHIC] [TIFF OMITTED] T2629.043
    
    [GRAPHIC] [TIFF OMITTED] T2629.044
    
    [GRAPHIC] [TIFF OMITTED] T2629.045
    
    [GRAPHIC] [TIFF OMITTED] T2629.046
    
    [GRAPHIC] [TIFF OMITTED] T2629.047
    
    [GRAPHIC] [TIFF OMITTED] T2629.048
    
    [GRAPHIC] [TIFF OMITTED] T2629.049
    
    [GRAPHIC] [TIFF OMITTED] T2629.050
    
    [GRAPHIC] [TIFF OMITTED] T2629.051
    
    [GRAPHIC] [TIFF OMITTED] T2629.052
    
    [GRAPHIC] [TIFF OMITTED] T2629.053
    
    [GRAPHIC] [TIFF OMITTED] T2629.054
    
    [GRAPHIC] [TIFF OMITTED] T2629.055
    
    [GRAPHIC] [TIFF OMITTED] T2629.056
    
    [GRAPHIC] [TIFF OMITTED] T2629.057
    
    [GRAPHIC] [TIFF OMITTED] T2629.058
    
    [GRAPHIC] [TIFF OMITTED] T2629.059
    
    [GRAPHIC] [TIFF OMITTED] T2629.060
    
    [GRAPHIC] [TIFF OMITTED] T2629.061
    
    [GRAPHIC] [TIFF OMITTED] T2629.062
    
    [GRAPHIC] [TIFF OMITTED] T2629.063
    
    [GRAPHIC] [TIFF OMITTED] T2629.064
    
    [GRAPHIC] [TIFF OMITTED] T2629.065
    
    [GRAPHIC] [TIFF OMITTED] T2629.066
    
    [GRAPHIC] [TIFF OMITTED] T2629.067
    
    [GRAPHIC] [TIFF OMITTED] T2629.068
    
    [GRAPHIC] [TIFF OMITTED] T2629.069
    
    [GRAPHIC] [TIFF OMITTED] T2629.070
    
    [GRAPHIC] [TIFF OMITTED] T2629.071
    
    [GRAPHIC] [TIFF OMITTED] T2629.072
    
    [GRAPHIC] [TIFF OMITTED] T2629.073
    
    [GRAPHIC] [TIFF OMITTED] T2629.074
    
    [GRAPHIC] [TIFF OMITTED] T2629.075
    
    [GRAPHIC] [TIFF OMITTED] T2629.076
    
    [GRAPHIC] [TIFF OMITTED] T2629.077
    
    [GRAPHIC] [TIFF OMITTED] T2629.078
    
    [GRAPHIC] [TIFF OMITTED] T2629.079
    
    [GRAPHIC] [TIFF OMITTED] T2629.080
    
    [GRAPHIC] [TIFF OMITTED] T2629.081
    
    [GRAPHIC] [TIFF OMITTED] T2629.082
    
    [GRAPHIC] [TIFF OMITTED] T2629.083
    

</pre></body></html>
